<html>
<title> - CHILD NUTRITION ASSISTANCE: ARE FEDERAL RULES AND REGULATIONS SERVING THE BEST INTERESTS OF SCHOOLS AND FAMILIES?</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




 
                    CHILD NUTRITION ASSISTANCE: ARE
                     FEDERAL RULES AND REGULATIONS
                     SERVING THE BEST INTERESTS OF
                         SCHOOLS AND FAMILIES?

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, JUNE 16, 2015

                               __________

                           Serial No. 114-19

                               __________

  Printed for the use of the Committee on Education and the Workforce
  
  
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
  


      Available via the World Wide Web: www.gpo.gov/fdsys/browse/
           committee.action?chamber=house&committee=education
                                   or
            Committee address: http://edworkforce.house.gov
            
            
                           _________ 
                           
                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 94-925 PDF             WASHINGTON : 2016       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                            
            
            
            
            
                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN KLINE, Minnesota, Chairman

Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Virginia Foxx, North Carolina            Virginia
Duncan Hunter, California              Ranking Member
David P. Roe, Tennessee              Ruben Hinojosa, Texas
Glenn Thompson, Pennsylvania         Susan A. Davis, California
Tim Walberg, Michigan                Raul M. Grijalva, Arizona
Matt Salmon, Arizona                 Joe Courtney, Connecticut
Brett Guthrie, Kentucky              Marcia L. Fudge, Ohio
Todd Rokita, Indiana                 Jared Polis, Colorado
Lou Barletta, Pennsylvania           Gregorio Kilili Camacho Sablan,
Joseph J. Heck, Nevada                 Northern Mariana Islands
Luke Messer, Indiana                 Frederica S. Wilson, Florida
Bradley Byrne, Alabama               Suzanne Bonamici, Oregon
David Brat, Virginia                 Mark Pocan, Wisconsin
Buddy Carter, Georgia                Mark Takano, California
Michael D. Bishop, Michigan          Hakeem S. Jeffries, New York
Glenn Grothman, Wisconsin            Katherine M. Clark, Massachusetts
Steve Russell, Oklahoma              Alma S. Adams, North Carolina
Carlos Curbelo, Florida              Mark DeSaulnier, California
Elise Stefanik, New York
Rick Allen, Georgia

                    Juliane Sullivan, Staff Director
                 Denise Forte, Minority Staff Director
                 
                 
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on June 16, 2015....................................     1

Statement of Members:
    Kline, Hon. John, Chairman, Committee on Education and the 
      Workforce..................................................     1
        Prepared statement of....................................     3
    Scott, Hon. Robert C. ``Bobby'', Ranking Member, Committee on 
      Education and the Workforce................................     4
        Prepared statement of....................................     6

Statement of Witnesses:
    Vilsack, Hon. Tom, Governor, Secretary, U.S. Department of 
      Agriculture, Washington, DC................................     8
        Prepared statement of....................................     9

Additional Submissions:
    Courtney, Hon. Joe, a Representative in Congress from the 
      State of Connecticut:
        Report: Retreat Is Not An Option.........................    28
    Takano, Hon. Mark, a Representative in Congress from the 
      State of California:
        Prepared statement of from Taylor, Mr. Rodney, Director 
          of Nutrition Services Riverside Unified School District    50
    Questions submitted for the record by:
        Chairman Kline...........................................    71
        Barletta, Hon. Lou, a Representative in Congress from the 
          State of Pennsylvania..................................    71
        Bishop, Hon. Mike D., a Representative in Congress from 
          the State of Michigan..................................    72
        Scott, Hon. Robert C. ``Bobby'', a Representative in 
          Congress from the State of Virginia....................    72
        Thompson, Hon. Mark, a Representative in Congress from 
          the State of Pennsylvania..............................    72
    Secretary Vilsack, response to questions submitted for the 
      record.....................................................    74


                    CHILD NUTRITION ASSISTANCE: ARE



                     FEDERAL RULES AND REGULATIONS



                     SERVING THE BEST INTERESTS OF



                         SCHOOLS AND FAMILIES?

                              ----------                              


                         Tuesday, June 16, 2015

                       House of Representatives,

               Committee on Education and the Workforce,

                            Washington, D.C.

                              ----------                              

    The committee met, pursuant to call, at 10:01 a.m., in Room 
2175, Rayburn House Office Building, Hon. John Kline [chairman 
of the committee] presiding.
    Present: Representatives Kline, Foxx, Roe, Thompson, 
Walberg, Salmon, Guthrie, Rokita, Messer, Brat, Carter, Bishop, 
Grothman, Curbelo, Stefanik, Allen, Scott, Davis, Grijalva, 
Courtney, Fudge, Polis, Sablan, Wilson, Bonamici, Takano, 
Jeffries, Clark, Adams, and DeSaulnier.
    Staff present: Lauren Aronson, Press Secretary; Janelle 
Belland, Coalitions and Members Services Coordinator; Martha 
Davis, Staff Assistant; Kathlyn Ehl, Professional Staff Member; 
Matthew Frame, Legislative Assistant; Amy Raaf Jones, Director 
of Education and Human Resources Policy; Nancy Locke, Chief 
Clerk; Daniel Murner, Deputy Press Secretary; Brian Newell, 
Communications Director; Krisann Pearce, General Counsel; Mandy 
Schaumburg, Education Deputy Director and Senior Counsel; 
Alissa Strawcutter, Deputy Clerk; Tylease Alli, Minority Clerk/
Intern and Fellow Coordinator; Austin Barbera, Minority Staff 
Assistant; Kelly Broughan, Minority Education Policy Advisor; 
Denise Forte, Minority Staff Director; Tina Hone, Minority 
Education Policy Director and Associate General Counsel; and 
Brian Kennedy, Minority General Counsel.
    Chairman Kline. A quorum being present, the Committee on 
Education and Workforce will come to order.
    Good morning, Secretary Vilsack. Welcome to the Education 
and Workforce Committee. Thank you for joining us to discuss an 
issue I know we all care deeply about, that is providing low-
income children and families access to healthy meals and 
snacks.
    We know the important role nutrition plays in a child's 
development and education. As I have said before, it is just 
common sense that if children are hungry or malnourished then 
they are less likely to succeed in the classroom. That is why 
the Federal Government has long invested in programs that aim 
to provide America's most vulnerable students the nutrition 
assistance they need.
    Ensuring children have access to healthy food is a goal we 
all share and lies at the heart of our effort to reform federal 
child nutrition programs, many of which are set to expire later 
this year.
    We have conducted several hearings and briefings to learn 
more about these programs, as well as the rules and regulations 
that dictate their implementation at the state and local 
levels.
    What we have learned from students, parents, school 
nutrition professionals, government watchdogs and other key 
stakeholders and, yes, even in the Department of Agriculture is 
that the latest reauthorization of federal child nutrition laws 
is the most far-reaching and costliest in a generation.
    Current law requires the department to prescribe how much 
money schools charge for meals, what food can and can't be 
served in schools and how much of it can be served. In other 
words, Washington is responsible for deciding what and how much 
our children eat.
    These regulations have created an environment where 
students aren't getting the nourishment they need, and food and 
taxpayer dollars wind up literally in the trashcan.
    Julia Bauscher, president of the School Nutrition 
Association, conveyed to the committee the concern she is 
hearing from school nutrition professionals across the country. 
Julia described how regulations are resulting in harmful 
consequences that threaten the ability of schools to best serve 
students.
    She went on to decry the sharp increase in costs and wastes 
and the historic decline of student lunch participation under 
the new requirements.
    We are often told that more than 90 percent of 
participating schools are complying with the law. First, as we 
learned from the Government Accountability Office, it is highly 
likely this number is overly optimistic.
    But let us not forget that schools that choose to 
participate must comply with the law. The question is not how 
many schools are in compliance. The question is, at what cost? 
The department estimates that participating school districts 
will be forced to absorb $3.2 billion in additional compliance 
costs over a 5-year period.
    To make matters worse, fewer students are being served. 
Since the regulations were put in place, participation in the 
school meals programs has declined more rapidly than any other 
period over the last three decades with 1.4 million fewer 
children being served each day.
    I saw these challenges firsthand during my visit to the 
Prior Lake School District in Savage, Minnesota. Students 
described smaller portion sizes and limited options that left 
students hungry and more likely to buy junk food. After 
students petitioned the school board, Prior Lake has decided to 
drop out of the school meals program next school year. It is 
the only way the school can meet the needs of its students.
    And the problems with the law don't stop there. The Office 
of Inspector General for the Department of Agriculture, and the 
GAO identified examples of programs misusing taxpayer dollars, 
raising serious concerns about whether or not we are actually 
assisting those in need.
    As we work to reauthorize federal child nutrition programs, 
we must find solutions that will ensure taxpayer dollars are 
well spent and children are well served.
    We know developing a one-size-fits-all approach is not the 
answer. More mandates and more money aren't the answer either. 
Instead, we should look to improve these programs by giving 
states and school districts the flexibility they need to 
fulfill the promise of child nutrition assistance.
    Duke Storen from the not-for-profit organization, ``Share 
Our Strength,'' advised at a recent hearing, quote: ``It is 
critical to remove bureaucratic barriers and create 
efficiencies that will allow us to reach those kids who 
currently go without,'' close quote.
    I look forward to discussing how we can achieve just that 
without imposing more burdens on our schools.
    Again, Mr. Secretary, thank you for joining us to share 
your perspective on these important issues, and I look forward 
to our discussion.
    And with that, I will now recognize the committee's ranking 
member, Mr. Scott, for his opening remarks.
    [The statement of Chairman Kline follows:]

            Prepared Statement of Hon. John Kline, Chairman 
                Committee on Education and the Workforce

    Good morning, Secretary Vilsack, and welcome to the Education and 
the Workforce Committee. Thank you for joining us to discuss an issue I 
know we all care deeply about: providing low-income children and 
families access to healthy meals and snacks.
    We all know the important role nutrition plays in a child's 
development and education. As I've said before, it's just commonsense 
that if children are hungry or malnourished, then they are less likely 
to succeed in the classroom. That's why the federal government has long 
invested in programs that aim to provide America's most vulnerable 
students the nutrition assistance they need.
    Ensuring children have access to healthy food is a goal we all 
share and lies at the heart of our effort to reform federal child 
nutrition programs, many of which are set to expire later this year. We 
have conducted several hearings and briefings to learn more about these 
programs, as well as the rules and regulations that dictate their 
implementation at the state and local levels.
    What we have learned from students, parents, school nutrition 
professionals, government watchdogs, other key stakeholders, and yes, 
even the Department of Agriculture, is that the latest reauthorization 
of federal child nutrition laws is the most far-reaching and costliest 
in a generation. Current law requires the department to prescribe how 
much money schools charge for meals, what food can and cannot be served 
in schools, and how much of it can be served.
    In other words, Washington is responsible for deciding what and how 
much our children eat. These regulations have created an environment 
where students are not getting the nourishment they need, and food and 
taxpayer dollars wind up in the trashcan.
    Julia Bauscher, president of the School Nutrition Association, 
conveyed to the committee the concerns she is hearing from school 
nutrition professionals across the country. Julia described how 
regulations are resulting in harmful consequences that threaten the 
ability of schools to best serve students. She went on to decry the 
``sharp increase in costs and waste and the historic decline in student 
lunch participation under the new requirements.''
    We are often told that more than 90 percent of participating 
schools are complying with the law. First, as we learned from the 
Government Accountability Office, it is highly likely this number is 
overly optimistic. But let's not forget that schools that choose to 
participate must comply with the law. The question isn't how many 
schools are in compliance, the question is: At what cost?
    The department estimates that participating school districts will 
be forced to absorb $3.2 billion in additional compliance costs over a 
five-year period. To make matters worse, fewer students are being 
served. Since the regulations were put in place, participation in the 
school meals programs has declined more rapidly than any other period 
over the last three decades, with 1.4 million fewer children being 
served each day.
    I saw these challenges firsthand during my visit to the Prior Lake 
School District in Savage, Minnesota. Students described smaller 
portion sizes and limited options that left students hungry and more 
likely to buy junk food. After students petitioned the school board, 
Prior Lake has decided to drop out of the school meals program next 
school year. It is the only way the school can meet the needs of its 
students.
    And the problems with the law do not stop there. The Office of 
Inspector General for the Department of Agriculture and the GAO 
identified examples of programs misusing taxpayer dollars, raising 
serious concerns about whether or not we are actually assisting those 
in need.
    As we work to reauthorize federal child nutrition programs, we must 
find solutions that will ensure taxpayer dollars are well spent and 
children are well served. We know developing a one-size-fits-all 
approach is not the answer. More mandates and more money aren't the 
answer either. Instead, we should look to improve these programs by 
giving states and school districts the flexibility they need to fulfill 
the promise of child nutrition assistance.
    Duke Storen from the not-for-profit organization Share Our Strength 
advised at a recent hearing, ``It's critical . . . to remove 
bureaucratic barriers and create efficiencies that will allow us to 
reach those kids who currently go without.'' I look forward to 
discussing how we can achieve just that without imposing more burdens 
on our schools.
    Again, Secretary Vilsack, thank you for joining us to share your 
perspective on these important issues. I look forward to our 
discussion. With that, I will now recognize the committee's ranking 
member, Congressman Scott, for his opening remarks.
                                 ______
                                 
    Mr. Scott. Thank you, Mr. Chairman, for holding this 
hearing.
    Today we will discuss the implementation of the 2010 
Healthy, Hunger-Free Kids Act as well as policy ideas for the 
upcoming reauthorization for the Child Nutrition Act.
    I would like to thank our secretary of agriculture, Mr. 
Vilsack, for being with us to discuss this important issue.
    More than 60 years ago through the enactment of the first 
federal child nutrition program, the National School Lunch Act 
of 1946, Congress recognized that feeding hungry children was 
not just a moral imperative, but also an imperative for the 
health and security of our nation because so many of our youth 
were malnourished and not prepared for military service.
    In 1946, the 79th Congress passed the National School Lunch 
Act, quote: ``As a measure of national security to safeguard 
the health and well-being of the nation's children and to 
encourage the domestic consumption of nutritious agricultural 
commodities and other food by assisting the states through 
grants and aid and other means in providing an adequate supply 
of food and other facilities for the establishment, 
maintenance, operation, and expansion of non-profit school 
lunch programs.''
    Today we are faced with another crisis that impacts our 
nation's national security. Our children are now too obese to 
enlist in our nation's military. One-third of children in this 
country are obese or overweight and childhood obesity has 
tripled over the last 30 years.
    According to one report, our nation has the second-highest 
obesity rate in the world. Obesity-related illnesses are 
costing a shocking $190 billion a year. This not only weakens 
our economy, it also increases our budget deficits.
    While all segments of our population are affected, school 
insecure and low-income families are especially vulnerable to 
obesity and other chronic diseases due to the additional risk 
factors associated with poverty.
    Unfortunately, the poorest among us have the least access 
to healthy foods, many times without full-service grocery 
stores and farmers' markets in their communities.
    In my home state of Virginia, first lady Dorothy McAuliffe 
has been focusing not only on ending childhood hunger, but also 
on improving access to Virginia's fresh and locally grown 
agricultural commodities. This dual goal helps children, 
supports our farmers, and strengthens local economies.
    The reality is that the negative effects associated with 
poor nutrition are preventable. We still have a long way to go, 
but there are positive signs of progress through the 
implementation of the child nutrition programs.
    Special Supplemental Nutrition Program for Women, Infants 
and Children, the WIC program, has consistently proven to be a 
cost-effective investment that improves the nutrition and 
health of low-income families. The program has led to healthier 
infants, more nutritious diets, better health care for 
children, and, subsequently, higher academic achievement for 
students.
    For some students, their only access to nutritious meals is 
at school through the school meal programs. And we know that 
children and teens can consume up to half of their total 
calories at school.
    During the average school day in 2011, more than 31 million 
school children ate school lunch and over 12 million ate school 
breakfast. It is up to us to ensure that our children are fed 
nutritious meals that can support them as they learn and grow.
    For the first time in over 30 years, the Healthy, Hunger-
Free Kids Act has given the opportunity to make the reforms 
that improve the nutrition and hunger safety net for millions 
of children. Studies have shown that children are now eating 
more fruits and vegetables, and in many schools there has been 
widespread acceptance of the new nutrition programs.
    As we address the implementation of the law, it is 
important to remember that the guidelines are evidence-based, 
not based on politics or corporate bottom lines. They reflect 
the healthy eating habits most of us in the room try to follow 
each day.
    While there are a small number of schools still working to 
meet compliance with the new standards, the vast majority of 
schools, 95 percent, report that they are successfully 
implementing the new healthy meal standards.
    These programs are powerful tools in providing greater 
economic opportunities for at-risk youth and helping them break 
free of the tragic cycle of poverty. It is critical that we 
work with schools to ensure that they have the support they 
need to be successful.
    So I look forward to hearing about the USDA's new technical 
assistance initiative, Team Up for Success, and how the unique 
challenges of schools are being met.
    Today we have the opportunity to discuss the scope and 
impact of the new school meals and WIC programs. And I hope 
that we will also discuss ways to improve and strengthen them.
    This year's reauthorization of the child nutrition programs 
should build on the progress we have made over the last 5 
years.
    Thank you, Mr. Chairman. And I yield back.
    [The statement of Mr. Scott follows:]

 Prepared Statement of Hon. Robert C. ``Bobby'' Scott, Ranking Member, 
                Committee on Education and the Workforce

    Good morning and thank you, Chairman Kline, for holding 
this hearing. Today we will discuss the implementation of the 
2010 Healthy, Hunger-Free Kids Act as well as policy ideas for 
the upcoming reauthorization of the Child Nutrition Act. I 
would like to thank the Agriculture Secretary, the Honorable 
Tom Vilsack, for being with us today to discuss this important 
issue.
    More than 60 years ago, through enactment of the first 
federal child nutrition program--the National School Lunch Act 
of 1946--Congress recognized that feeding hungry children was 
not just a moral imperative but also an imperative for the 
health and security of our nation.
    In 1946, the 79th Congress passed the National School Lunch 
Act ``as a measure of national security, to safeguard the 
health and well-being of the Nation's children and to encourage 
the domestic consumption of nutritious agricultural commodities 
and other food, by assisting the States, through grants-in aid 
and other means, in providing an adequate supply of food and 
other facilities for the establishment, maintenance, operation 
and expansion of nonprofit school lunch programs.''
    Today, we are faced with yet another crisis that impacts 
our nation's national security--our children are now too obese 
to enlist in our nation's military.
    One-third of children in this country are obese or 
overweight and childhood obesity has tripled in the past 30 
years. According to a report from the Food and Agriculture 
Organization of the U.N., our nation has the second highest 
obesity rate in the world, and obesity-related illnesses are a 
costing a shocking $190.2 billion per year. This weakens our 
economy and increases budget deficits.
    While all segments of the population are affected, food 
insecure and low-income families are especially vulnerable to 
obesity and other chronic diseases due to the additional risk 
factors associated with poverty. Unfortunately, the poorest 
amongst us have the least access to healthy foods, many times 
without full-service grocery stores and farmers' markets in 
their communities.
    In my home state of Virginia, First Lady Dorothy McAuliffe 
has been focusing not only on ending childhood hunger, but also 
on improving access to Virginia's fresh and locally grown 
agricultural commodities. This dual goal helps children, 
supports our farmers and strengthens our local economies.
    The reality is that the negative health effects associated 
with poor nutrition are preventable. We still have a long way 
to go, but there have been positive signs of progress through
    implementation of child nutrition programs. The Special 
Supplemental Nutrition Program for Women, Infants, and Children 
(WIC) has consistently proven to be a cost-effective investment 
that improves the nutrition and health of low-income families. 
The program has led to healthier infants, more nutritious diets 
and better health care for children, and subsequently to higher 
academic achievement for students.
    For some children, their only access to nutritious meals is 
at school, through the school meal programs, and we know that 
children and teens can consume up to half of their total daily 
calories at school. During the average school day in 2011, more 
than 31 million children ate school lunch, and 12.5 million ate 
school breakfast. It is up to us to ensure that our children 
are fed nutritious meals that can support them as they learn 
and grow.
    For the first time in over 30 years, the Healthy, Hunger-
Free Kids Act has given us the opportunity to make reforms that 
improve the nutrition and hunger safety net for millions of 
children. Studies have shown that students are now eating more 
fruits and vegetables, and in many schools there has been 
widespread acceptance of the new nutrition standards.
    As we address the implementation of this law, it is 
important to remember that the guidelines are evidence-based; 
they are not based on politics or corporate bottom-lines. They 
reflect the healthy eating habits most of us in this room try 
to follow each day.
    While there are a small number of schools still working to 
meet compliance with new standards, the vast majority of school 
districts--95 percent--are successfully implementing the new 
healthy meals standards. These programs are powerful tools in 
providing greater economic opportunities for at-risk youth, and 
helping them break free of the tragic cycle of poverty. It is 
critical that we work with schools to ensure they have the 
support they need to be successful. I look forward to hearing 
more about the USDA's new technical assistance initiative, Team 
Up for Success, and how the unique challenges of schools are 
being met.
    Today we will have an opportunity to discuss the scope and 
impact of the new school meals and WIC programs. I'm hopeful 
that we will also discuss ways to improve and strengthen them. 
This year's reauthorization of the child nutrition programs 
should build on the progress we've made over the last five 
years.
    Thank you and I yield back.
                                ------                                

    Chairman Kline. I thank the gentleman.
    Pursuant to committee rule 7(c), all members will be 
permitted to submit written statements to be included in the 
permanent hearing record.
    Without objection, the hearing record will remain open for 
14 days to allow such statements and other extraneous material 
referenced during the hearing to be submitted for the official 
hearing record.
    I will now introduce our distinguished witness who probably 
needs no introduction being a Cabinet secretary. But just as a 
reminder, the honorable Tom Vilsack is the secretary of the 
United States Department of Agriculture.
    Secretary Vilsack has served as the secretary of the U.S. 
Department of Agriculture since 2009. In this role, he manages 
a staff of over 100,000 as they implement the administration's 
agriculture policies, including oversight and implementation of 
the federal child nutrition programs.
    Prior to his appointment, Secretary Vilsack served two 
terms as a governor of Iowa as well as two terms as a state 
senator.
    It is always nice to have somebody from a neighboring state 
here, Mr. Secretary.
    [Witness sworn.]
    Let the record reflect our witness answered in the 
affirmative. And they always do.
    Before I recognize you to provide your testimony, let me 
just remind you very briefly of the lighting system. Some 
hearing rooms have gotten a lot more sophisticated than our old 
one. Ours is pretty straightforward.
    We have got the green, yellow, and red lights. You can 
largely ignore those. I have never gaveled-down a Cabinet 
secretary for opening remarks that were a little too long, but 
please just be mindful that we have a lot of members who want 
to ask questions.
    And then when we get to the question-and-answer period, I 
will do my best to keep my colleagues to the 5-minute rule.
    Mr. Secretary, you are recognized.

 TESTIMONY OF HON. TOM VILSACK, SECRETARY, U.S. DEPARTMENT OF 
                 AGRICULTURE, WASHINGTON, D.C.

    Secretary Vilsack. Mr. Chairman, thank you very much.
    And in the interest of time, perhaps the chair would allow 
me to associate myself with the ranking member's remarks and 
the chairman's remarks relating to the integrity of the 
program.
    If you take Representative Scott's remarks and your remarks 
on the integrity of the program, you pretty much have my 
opening statement.
    And with that, I would be happy to answer questions.
    [The testimony of Secretary Vilsack follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
    [Laughter.]
    Chairman Kline. Did we even bother to turn on the green 
light?
    Well, Mr. Secretary, that is absolutely outstanding. That 
does set a record.
    [Laughter.]
    Let met start, if I may.
    Yes, put me on the clock.
    As I mentioned to you very briefly, and I will give you a 
chance to talk about the numbers here, but I went to visit a 
school in my district to learn about the school meal program 
because some of the students had written a letter, signed a 
petition suggesting that maybe they ought to get out of the 
program.
    So I went to visit them, and very, very nice school, 
students coming through the lunch program with amazing 
technology. They had a little card and they could put it up 
there and immediately the cashier saw who they were and that 
they were on the program.
    And things were going pretty well. Then I sat down with the 
four students and the principal and some other adults there as 
well, but I found it very interesting in the discussion with 
the students.
    There were two young women, this is a high school, two 
young men. One of the young men was getting ready to go on 
scholarship out to Arizona to play football. And I am not sure 
how much he weighed, I did not ask him, but well north of 200 
pounds. And one of the young women clearly weighed probably 
half of that.
    And yet part of their complaint was, look, this system has 
got us trapped here because we have to have the same portions 
and that does not make any sense to us. If you are going to go 
out to play football on a scholarship, it seems they thought, 
and it seems to be reasonable to me, you ought to have more 
food.
    And so what was happening was that because the portions 
were not large enough in all cases, they were taking their own 
money and going and buying food. And it clearly was not the 
sort of healthy lunch that was being served in the school 
cafeteria.
    And it was indeed a healthy lunch, and they did not have 
complaints about how the food tasted. They said they liked the 
broccoli, so I took them at their word, and they liked the 
fruit and so forth. But they certainly were upset about the 
portions.
    And the fact that they then had to go and buy more food, 
stop off at a fast-food place or something like that is clearly 
not what we are trying to get to here.
    And this was a relatively wealthy school. And these kids 
probably had the money where they could stop and buy that food. 
And some students with not those resources couldn't do it.
    So it seems to me that while the students wanted healthy 
meals, but the meals that they were being served did not meet 
their needs and they were so upset about that they petitioned 
to drop out of the program, now, of course, the school has 
agreed to drop out of the program, how can you say, if you are 
saying, that the program is working as advertised when you have 
those kinds of problems?
    We clearly have an issue where a football player it seems 
ought to be having a considerably bigger portion than someone 
half their weight.
    Secretary Vilsack. Mr. Chairman, I think I would start by 
explaining that the standards that have been established were 
based on expert advice and direction from the Institute of 
Medicine in terms of what an average-sized individual would 
need at that point in time during the day.
    It is roughly 25 calories less than the meals were previous 
to the Healthy, Hunger-Free Kids Act. So it is not that 
significant in terms of the difference.
    You know, this is not, in fairness, all-you-can-eat at 
Applebee's. This is a school lunch program. And the reality is, 
based on surveys, the vast majority of students, high school 
students, elementary students, and middle school students, have 
accepted and are in favor of these new standards.
    A recent survey by Robert Wood Johnson had 70 percent of 
elementary and middle school kids saying they liked the new 
standard; 63 percent of high school kids.
    I don't doubt that you are going to find a few folks who 
have concerns, and that is why we have suggested that they can 
bring a snack. There is no reason why they can't bring a snack 
to school.
    There is also a sharing table, opportunities for those who 
aren't going to eat everything that is on their plate, for 
whatever reason, can share with those who want more food.
    There are vending machines at the school that will provide 
consistent, smart, and healthy snacks.
    So there are ways to address this issue without necessarily 
rolling back the standards and creating a significant rollback.
    And I think the reason why I associated myself with 
Representative Scott's comments is that we are dealing with 
twin issues here. We are dealing with 17 million youngsters who 
are food insecure. At the same time, we are dealing with nearly 
a third of our youngsters who are obese or at risk of being 
obese.
    And indeed, our national security is indeed threatened, 
which is why Mission: Readiness has been so strongly in favor 
of these standards, retired admirals and generals saying we 
have got to get our kids in better shape.
    So on balance, if you follow the expert advice, if you 
provide options and snacks and sharing tables and you see a 
preponderance of students accepting these standards, I think we 
are on the right track.
    So you know, I am convinced that we have--you know, we have 
also looked at the issue of plate waste, suggesting somehow 
that folks are throwing food away. The reality is Harvard has 
looked at this, the Rudd Center has looked at this and they 
have found that in fact kids are consuming more fruits and 
vegetables and there is no more plate waste today than there 
was before the passage of the Healthy, Hunger-Free Kids Act.
    Chairman Kline. My time has indeed expired.
    Mr. Scott?
    Mr. Scott. Thank you.
    Thank you, Mr. Secretary.
    I understand that 95 percent of the school districts are 
reporting that they are in compliance with the upgraded 
standards in the last reauthorization. Is that right?
    Secretary Vilsack. That is correct, Representative, and 
that is why they are entitled to the 6 cents reimbursement 
increase.
    Mr. Scott. And is there any reason to reduce the standards?
    Secretary Vilsack. I can't see the reason to reduce the 
standards. We have provided flexibility, as you well know, in 
sodium, whole grains, and in other aspects of the rule. I think 
we will continue to look for opportunities to be flexible. But 
I don't think you want to roll the standards back.
    Mr. Scott. And are the standards based on medical and 
professional, scientific advice?
    Secretary Vilsack. They are, consistent with the Institute 
of Medicine Standards.
    Mr. Scott. There is a program, community eligibility, where 
if an overwhelming portion of the students are eligible that 
you can go school-wide and forget about eligibility and just 
serve everybody. Can you talk about that program a little bit 
and how it avoids a lot of the administrative costs associated 
with the program?
    Secretary Vilsack. Fourteen thousand schools, over 2,000 
school districts and 6.4 million children are currently 
benefiting from the Community Eligibility Program. It 
essentially says to a school district that if you have more 
than 40 percent of your youngsters who are directly certified 
as being TANF eligible or Medicaid eligible then you are 
entitled to adopt community eligibility, which essentially 
allows you not to have to require a student to take an 
application form home, have it be filled out by mom or dad, and 
brought back to school and then calculated and aggregated by 
the school district.
    It allows the school district to essentially receive 
reimbursement based on a mathematical computation, multiplying 
the number of free and reduced kids by 1.6, and that is the 
amount of resources that the school district gets.
    About half the school districts that are eligible for this 
have adopted it. And I think there are two reasons why we need 
to continue to press this program. One is it indeed saves money 
for the administration, roughly $29 a student is saved.
    Secondly, it provides more accurate reads in terms of the 
number of kids who are actually going to participate in the 
program, so it reduces error rates and provides greater access.
    So saving costs, reducing error rates and greater access.
    We continue to promote this. One of the issues, frankly, is 
school districts use the free and reduced lunch calculation to 
determine their eligibility for Title I funding. So I have 
spoken to Secretary Duncan about whether or not we could create 
a similar mathematical formulation that would get over the 
issue with Title I. And I suspect if we did that we would 
probably see even greater participation.
    Mr. Scott. Thank you. Have you done any rules and 
regulation changes for the school breakfast and lunch programs 
that ensure that more children are participating?
    Secretary Vilsack. Well, there are more children 
participating in school breakfast. Well over 1 million more 
students are participating, 300 million more meals are being 
served this year than previous years.
    I think one of the greatest things that we have been able 
to do is to reduce the stigma of school breakfast in terms of 
providing opportunities for meals in the classroom so that kids 
aren't necessarily segregated at the beginning of the school 
day in the cafeteria, so that people can make a judgment about 
their financial well-being.
    And so based on those kinds of standards and based on those 
kinds of activities, we are seeing an increase.
    Obviously, we don't have attached to it additional 
reimbursement rates as we did with the school lunch program, 
but we are seeing increased participation. And teachers will 
tell you that they are happy to see this because a hungry child 
is not a child who is ready to learn.
    Mr. Scott. Have you seen any evidence that nutrition 
programs save money by reducing health care costs or other 
expenses?
    Secretary Vilsack. Well, to the extent that we are dealing 
with the obesity issue, it is about $14 billion a year in 
annual health costs for kids currently. And those will increase 
when they take the chronic diseases that they are currently 
suffering from into adulthood.
    So to the extent that we can get a handle on the obesity 
issue and to the extent that we provide proper nutrition to 
kids who are living in food-insecure homes, we are going to see 
better health outcomes.
    And frankly, we see that already with the WIC program, 
healthier births, more immunizations, better cognizant 
development as a result of the WIC program.
    Mr. Scott. And that reflects reduced costs?
    Secretary Vilsack. It obviously does. And the same thing I 
think could probably, the same argument could probably be true 
for the summer feeding program as well.
    Chairman Kline. Thank the gentleman.
    Dr. Foxx.
    Ms. Foxx. Thank you, Mr. Chairman.
    And thank you, Mr. Secretary, for being here.
    I want to associate myself with the comments of the 
chairman in terms of his comments related to the imposition of 
rules from Washington, which impose one-size-fits-all attitude. 
And I think in my question I will reflect that.
    But you said something in your comments or in answer to a 
question that I think illustrates that so well. You said there 
is no reason why they cannot bring a snack; that is up until 
now, until such time as perhaps the Agriculture Department 
determines that children can't bring snacks.
    The attitude is you are allowing them to bring snacks, so 
that the rulemaking comes from here, it is the permission is 
being given by Washington. That ought to be freedom of choice. 
And the attitude that there is no reason means you haven't 
declared a rule.
    But let me ask my question about the competitive foods 
rule, because it goes along with that.
    You issued a rule in 2013 called the competitive foods 
rule. You couldn't estimate the costs or the effect on school 
revenue without any certainty, but you did note that the 
247,000 comments which focused on finances, most of them were 
concerned that the rule would reduce school revenue.
    Additionally, it is estimated that school revenue 
authorities received, on average, 16 percent of their revenue 
from competitive food sales.
    So how did you determine the rule was responsible action 
and requirement from this administration?
    Secretary Vilsack. Well, first of all, let me clarify my 
remark involving snacks, if I might. I wasn't suggesting that 
folks were being allowed to bring snacks. They have always been 
allowed to bring snacks. There has been no prohibition and 
there never will be a prohibition about mom or dad providing a 
youngster the opportunity to take something to school to snack 
on. So that ought to be clear. If I didn't make that clear, I 
should have.
    Studies of vending machines providing healthier snacks have 
indicated that there has not been a significant decline in 
revenue to school districts that have studied this and looked 
at this.
    And I would also say what is of interest to me is that we 
provided $94 million at the beginning of this process for 
school districts to be able to utilize the money to assist them 
in better implementation.
    Today, now 5 years after the passage of that act, there is 
still $24 million of that resource that has not been spent by 
schools, and we have encouraged school districts and states 
where the money has not been spent to encourage the utilization 
of those resources if schools are suffering or having 
difficulty.
    So it is odd to me that we still have $24 million on the 
table. Hopefully this hearing will allow us to continue to put 
that information out so that people take advantage of those 
resources.
    Ms. Foxx. You can give me this answer later. But I wonder, 
have you tried in the Department of Agriculture to put the 
employees in the Department of Agriculture on the school food 
lunch program for a week or 2 to see how they respond to it? I 
think it would be an interesting experiment.
    But I have a second question. The USDA's OIG highlighted 
high rates of improper payments in the national school lunch 
and breakfast program. They said the lunch program is one of 13 
federal high-error programs.
    I know you and the ranking member talked about the 
integrity of the program, but what are you doing to address the 
high error rates, reduce fraudulent benefits and make sure the 
programs are serving those most in need?
    Secretary Vilsack. There are three reasons why we have the 
error rate that we have. And I think we probably would be in 
agreement with this committee that it is an unacceptably high 
rate.
    There is a certification issue involving parents basically 
providing information about income, that is not necessarily 
accurate or incomplete.
    There is an aggregation that takes place at the school 
district, where they basically aggregate all of the information 
provided to the state, that sometimes errors are in that 
process.
    And there is an error at the cashiers' location when a 
person goes through the line.
    A couple of things about this error rate. The dollar amount 
is a little bit suspect because if you are going through the 
line and you don't take one item that you are supposed to take, 
that entire cost of that meal is considered to be an error. So 
probably more information needs to be gleaned in terms of what 
the cost of these errors are.
    But we have done several things. One, we have provided a 
series of professional standards that will, I think, increase 
the professional standards of the folks at the cashiers' table 
so that they will make fewer errors.
    Two, we have begun the process of data mining to determine 
where we might provide additional help and assistance in 
schools that are repeatedly having problems.
    Three, we are pressing community eligibility as well as 
direct certification because we know, for example, in the 
direct certification program there is a significant decline in 
errors when the direct certification process is used.
    We are also looking at simplifying the application and 
providing an online application so that we reduce errors in 
that respect. We are also developing an Office of Integrity 
within the school lunch program.
    But we would have better results, I think, if we could 
receive permission from Congress to do more reviews of schools 
than we currently have. There is a limitation, and I think it 
is the only program of this kind where there is a limitation, 
where we can only look at 3 percent of schools.
    If we had an opportunity to look at more than 3 percent, I 
think we would have greater accountability on all three areas.
    We are seeing a reduction in error rates on the aggregation 
side because we have been working with states. We still have 
work to do on the certification and on the cashiers' side.
    Chairman Kline. The gentlelady's time has expired.
    Mr. Grijalva?
    Mr. Grijalva. Thank you very much, Mr. Chairman.
    And thank you, Mr. Secretary.
    Let me ask a couple of questions about access and greater 
access, maybe speak to some of the current barriers for year-
round service that students need and how potentially this 
year's reauthorization could do a lot to reduce or even 
hopefully eliminate some of those barriers.
    You know, the Healthy, Hunger-Free Kids Act was very 
important. It extended service, it involved community-based 
organizations and year-round, extended weekends, holidays. How 
can we go forward to expand greater access to children and to 
families?
    Secretary Vilsack. Well, I think one of the focuses that we 
have had is during the summer months. Obviously, I think as has 
been stated earlier, children receive somewhere between a third 
and two-thirds of their calories at school. And we are in the 
process of trying to figure out how to deal with those gaps.
    I am proud of the fact that we are now serving 23 million 
more summer meals than we did several years ago, but there is 
still work to be done because only 16 percent of kids who are 
eligible for summer meals are participating.
    So we are looking at several things. One, we are looking 
obviously at greater partnerships. I was in Baltimore yesterday 
at a library, encouraging libraries to potentially look at as 
sites where kids are spending a lot of time during the summer 
months.
    We are making sure that we reach out to schools and take a 
look at whether or not they might be willing to participate in 
the seamless school project which allows schools to essentially 
provide meals throughout the summer months.
    We are continuing to look for ways in which we can 
encourage service organizations to participate. So there is a 
significant effort relating to summer feeding, which I think 
will go a long way to addressing some of the concerns that you 
have outlined.
    The community eligibility and direct certification efforts 
also will make sure that kids who are currently not getting 
served in school districts because their parents don't get the 
application in, or for whatever reason, that those kids will 
also be served.
    So we would strongly encourage a continuation of those 
programs and expansion of those programs.
    Mr. Grijalva. We have received examples, several examples 
at this hearing and other hearings about the abuse of WIC, the 
lack of choices, why some schools drop out. So you know, I 
appreciate very much the fact that you referenced some of those 
examples with studies.
    Secretary Vilsack. Well, just to be clear about this. Since 
2013 when we fully implemented these standards, 58 schools out 
of over 99,000 schools have dropped out of the program--58 out 
of 99,000-plus.
    And some of the schools have dropped out, we now read there 
was a Houston Chronicle article yesterday, some of the more 
high-profiled schools that were profiled in Time magazine at 
the beginning of this process that dropped out are now coming 
back in because they realized that they weren't going to save 
money, they realized that the program was actually something 
that would benefit kids.
    So you know, we believe there is significant compliance 
here and we believe that with the flexibilities that have been 
provided and the resources and the assistance, the equipment 
grants, the smarter lunchroom grants where we are encouraging 
school districts to look creatively about how to display food 
and how to serve food, the Team Up for Success program that the 
chair and ranking member mentioned, which allows us to have 
struggling schools teamed up and mentored by succeeding 
schools, all of this is designed to provide assistance and 
help. And we think it is making a difference.
    Mr. Grijalva. You know, there is a system of budgeting or a 
metric now for budgeting dynamic scoring. And as such, it never 
includes savings. And I wish that now with this new system that 
we would include savings.
    My question to you, nutrition, preparedness for learning, 
health, all are investments in these babies, in these kids that 
receive the programs, that qualify for it. In anticipation, 
what are we looking at in terms of what we are saving not only 
society, but in terms of money as well?
    Secretary Vilsack. Well, Representative, I apologize, I 
should have this number off the top of my head, but there 
actually has been a study done of the WIC program in terms of 
its potential impact and effect on children, women, and 
infants.
    And it indeed focuses and recognizes that with improved 
immunization, with improved and healthier births we are indeed 
saving money. To the extent that we get a handle on the obesity 
issue, as we discussed earlier, that also will help provide 
savings.
    But at the end of the day, this is ultimately about making 
sure that youngsters are in the best position to be as 
productive as they want to be and can be. And the reality is if 
you are hungry or you are concerned about your self-image in 
school, you are going to have a harder time. And so that is one 
of the reasons why we are focused on making sure that these 
standards are implemented properly and making sure that the 
kids get access as they need.
    Mr. Grijalva. Thank you, Mr. Secretary.
    Thank you, Mr. Chairman. Yield back.
    Chairman Kline. Thank the gentleman.
    Now Mr. Thompson, you are recognized.
    Mr. Thompson. Thank you, Chairman.
    Secretary, good to see you.
    Secretary Vilsack. Good to see you, sir.
    Mr. Thompson. I wanted to zero in on a certain initial 
question on a certain area of the standards within the Healthy, 
Hunger-Free Kids Act of 2010. And it has to do with milk.
    And I know you had mentioned about academic professionals 
who were somehow responsible and behind the standards. 
Although, as I recall from the process and also from, quite 
frankly, my visits, I spend a lot of time in schools, eat a lot 
of school lunches, you know, it seems like our school nutrition 
professionals were largely ignored. And they have a lot of 
concerns.
    But my initial question I have for you, it has to do with 
the milk area. And the standard reads that only fat-free, 
unflavored or flavored, or unflavored low-fat fluid milk, 1 
percent milk or less, is allowed. Now, if truly those academic 
researchers who set that standard were spot on, we wouldn't be 
seeing since 2012 to 2014, you know, schools serving 187 
million fewer half pints of milk despite the fact that the 
population in the public schools is going up.
    And so I am not looking for criticism, I am looking for 
solutions, actually, to that.
    You know, given what we know about the nutritional value of 
milk, which is, I think, significant, it is cause for concern.
    And so to give schools more options and flexibility in 
providing milk, I recently introduced H.R. 2407, the School 
Milk Nutrition Act, in conjunction with my colleague Joe 
Courtney.
    Now, one of the bill's provisions would provide schools 
with the option of offering low-fat, 1 percent, flavored milk 
rather than only fat-free if milk contains no more than 150 
calories per eight ounce service. Obviously, still concerned 
with the over-all, arching purpose of what the 2010 act was 
reportedly written under.
    I just want to check. I mean, do you agree that declining 
rates of milk consumption are cause for concern? If so, do you 
believe the USDA should work with Congress to preserve milk's 
integral role in school meals?
    Secretary Vilsack. Representative, I see that I am going to 
get double teamed on this issue based on the lineup here.
    So you know, I have got to tell you, this is my personal 
view, I agree with you. I think if adding that option would 
encourage kids to drink more milk we should do that.
    Mr. Thompson. I think a little bit of flavor goes a long 
ways.
    Secretary Vilsack. Well, that is my personal preference. 
But you know, I honestly--the challenge here, I think, is we 
have created so many options for kids today in terms of what 
they consume.
    And you know, in terms of the nutritional bang for the 
buck, there is probably nothing better than a glass of milk. 
And so, you know, I think that there ought to be some way of 
working with your proposal or a similar proposal to provide a 
bit more flexibility, and hopefully we would see more 
consumption of milk.
    Mr. Thompson. Why don't I stay--I am going to milk this 
topic for all I can.
    [Laughter.]
    Switch over to a very important program that I personally--
my wife and I when we were first starting out with our first 
child we were eligible for the WIC program, Penny and Parker 
were. So I have a question regarding milk as a critical 
component of the WIC food package.
    Contrary to the Institute of Medicine's recommendations, 
the final WIC rule issued by USDA in March 2014 placed new 
restrictions on the availability of 2 percent milk for children 
ages two or older.
    Can you explain the basis for this new rule? And why was it 
finalized without allowing for a public comment period?
    Secretary Vilsack. Well, I think there was extensive 
opportunity for comment on the WIC rules over the course of 
several years. And so I think we had believed that we received 
all of the input that we needed to make a determination.
    You know, in terms of the WIC program, I think the goal 
here is to try to provide, supplement and complement what 
people are traditionally and normally purchasing. It isn't 
necessarily to be the be-all and end-all, it is actually a 
complement and supplement.
    And so I think the development of the WIC package was 
designed to say, you know, people are already buying a lot of 
this and this and this; what aren't they buying that they might 
be able to benefit from? And that is how the WIC package was 
put together.
    I suspect that is part of the reason. But if there is a 
more technical reason for that, Congressman, I will get that to 
you.
    Mr. Thompson. You had mentioned about, in the time I have 
remaining, about 3 percent is what you are allowed to survey or 
measure. Do you have a number that you would be looking for 
that you would feel more confident in terms of looking for 
errors? If it is 3 percent now, what would you like to see it 
be?
    Secretary Vilsack. Well, you know, it ought to be probably 
more consistent with every other program where we have greater 
flexibility to check. I don't know that we necessarily have a 
magic number, but what we do know is the more we do of this, 
the greater the accountability is.
    And probably, in all probability, we identify where the 
problem areas are and we can solve it and so we can bring that 
error rate number down, which you all believe is unacceptably 
high, and you are absolutely right about that.
    Mr. Thompson. Thank you.
    Chairman Kline. The gentleman's time has expired.
    And with my dairy farmers smiling ever more brightly, I 
will recognize Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, for your testimony and your 
leadership over the last 6-1/2 years, 8-1/2 years.
    The ranking member mentioned in his opening remarks the 
interesting genesis of school lunch programs that followed in 
the wake of World War II. And fast-forwarding to the last 
reauthorization in 2010, as a member of this committee I 
remember, again, vividly some of the most powerful testimony 
that we had was from retired military leaders who, again, were 
describing a totally different challenge that our country faces 
now in terms of military readiness.
    And Mission: Readiness, which you alluded to, again, is a 
group of 450 retired military leaders who just recently issued 
a report, ``Retreat Is Not an Option,'' which again reiterated 
the fact that one out of four 17-to 24-year olds are not fit to 
fight, and one out of eight who are actually serving are 
actually obese, diagnosed obese. That is $1.5 billion just to 
DOD's budget alone in terms of dealing with that program.
    So when they say retreat isn't an option, they are talking 
about retreat in terms of nutritional standards. And I think 
that is important to make that point clear.
    And I guess, you know, one question about the compliance 
issue, whether it is 90 percent or 95 percent or less than 90 
percent, as GAO, I mean what I think it is important sometimes 
to not lose sight of is that your department has been trying to 
do, starting from zero in 2010 when the president signed this 
into law, was to get the trend moving in the right direction.
    And I guess the initiatives that you described, I mean, we 
are moving in that direction. Isn't that right? I mean, it is 
not like we plateaued or we are sliding.
    I mean, the fact is that people, you know, just sort of get 
more comfortable with the system and also that you accommodate 
reasonable requests that were actually moving in the right 
direction.
    And I guess that is the point I want to just give you a 
chance to describe.
    Secretary Vilsack. Well, change obviously is difficult. And 
you are absolutely right. The Mission: Readiness has been very, 
very focused on this for the reasons that you articulated.
    And there are, as has been discussed, health care cost 
reasons, academic achievement reasons, economic productivity 
reasons for doing this.
    You know, I think I have some confidence in that level of 
compliance because we basically rely and trust on our state 
partners who are administering this program to give us the 
information from the individual school districts that they 
receive. And so you have to assume that individual school 
systems are telling you the truth when they say we are 
complying with this and we qualify now for the additional 
reimbursement rate.
    And from a Robert Wood Johnson survey of parents, we find 
80 percent of parents think this is a good approach. The 
students, by the same survey, basically indicate acceptance of 
this.
    So I think we are headed in the right direction, but you 
know, it is going to take time. Just as it took time in terms 
of addressing the issues in 1946, it is going to take time for 
the benefits of all of this to be perceived in data and 
information.
    But I have no doubt that we are going to see a healthier 
generation of kids in this country and our country is going to 
be better off for it.
    Mr. Courtney. Thank you, Mr. Secretary.
    And so it is my intention to, again, enter into the record 
``Retreat Is Not an Option'' which sort of lays out the case, 
again, from these distinguished military leaders.
    And I also would be remiss if I didn't follow up with Mr. 
Thompson's point which is actually within that report they note 
the fact that the consumption of milk since the 1970s for the 
average school child was about 250 calories back then. It has 
slid dramatically, and sugary drinks have grown dramatically at 
the same time. So they have actually crossed so that kids are 
drinking more empty-calorie drinks versus milk.
    And I think that is frankly one of the reasons we are in 
the predicament that we are in right now. And that is why I 
think Mr. Thompson's efforts, which I think, again, has 
bipartisan support, and we obviously welcome, you know, good 
suggestions to accomplish its goal, will help achieve the 
result that, again, these retired military leaders and 
yourself, now that you are on the record, think really will 
help us get to improve children's health and readiness to deal 
with all physical challenges as they enter adulthood.
    With that, I yield back. Mr. Chairman, and I ask that this 
report be entered into the record.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
    Chairman Kline. Without objection.
    I would have been shocked if you had not brought up milk, 
so glad not to be disappointed.
    And just for everyone's information, we are keenly aware 
that there is a microphone problem up here and scrambling to 
see if we can solve it.
    Mr. Salmon?
    Mr. Salmon. Thanks.
    Last month, the USDA released its second Access, 
Participation, Eligibility and Certification Study on measuring 
and reducing errors in the school meal programs. The department 
found a number of areas of fraud, waste, and abuse within these 
programs.
    And I have two questions regarding that. And then my last 
question is going to be regarding the administration's recent 
decision on trans fats and how that is going to translate into 
the school lunch programs.
    The report cites improper payments being made in the school 
lunch and breakfast programs. How prevalent and costly are 
these improper payments? And what is USDA doing to prevent 
these occurrences? That is my first question related to the 
study.
    And during school year 2005-2006, USDA found significant 
levels of program errors in school food service providers' 
abilities to adequately verify whether or not a child was 
eligible for certain reimbursement categories.
    The most recent study states ``that though some 
improvements have been made, levels of program errors remain 
high.'' To what degree do these errors affect the overall 
integrity of the program and access to meals for those who 
truly need them when people who don't need them or should not 
qualify are getting them? And how much are these errors costing 
the taxpayer? What is food and nutrition services doing to 
address these errors?
    And then finally, could you just address what kind of 
impact the trans fat decision by the administration is going to 
have on school meal programs?
    Secretary Vilsack. Well, we share the concern that you have 
about program integrity, which is why we have begun the process 
of professionalizing the standards for the folks who are the 
cashiers, the people who are basically making determinations 
at-site, on-site. We know that is one of three mistake areas or 
problem areas.
    Raising the standards and the understanding and the 
training for those individuals I think will help.
    We are also asking states to upgrade their training efforts 
as well so that personnel in the schools do a better job.
    Secondly, you know, the use of community eligibility and 
direct certification, we know from the data and the review of 
statistics substantially reduces the errors that you are 
concerned about.
    So to the extent that we can continue to look for ways to 
encourage districts, roughly 6.4 million kids, 14,000 schools, 
there are probably another 14,000 schools that could utilize 
community eligibility, they are unwilling or reluctant to do 
it, either because they have made the mathematical calculation 
that they won't benefit financially, or, in all likelihood, 
they are concerned about their impact on Title I.
    Today Title I eligibility is dependent on your free and 
reduced lunch percentage of your kids. If we could find a way 
to basically allow for some kind of mathematical formula to 
translate so you didn't actually need a specific count of free 
and reduced lunch kids for Title I, we would probably see a lot 
more school districts. That would substantially reduce the 
error rate.
    We also have to make the application simpler. Honestly, it 
is very complicated. And if you have got parents who maybe 
English is a second language type of thing, we probably need to 
make sure that we figure out ways to simplify that application 
to get the basic information.
    Online application might also help, so we are working on 
that. We have established an Office of Integrity to try to look 
at this.
    Earlier I mentioned the need for us to have increased 
capacity from Congress to review more schools. We currently are 
limited by Congressional mandate to only review 3 percent of 
schools in terms of compliance.
    Congressman Thompson asked me if there is a number. Now, my 
staff tells me that 10 percent would be more accurate and more 
helpful if we could get up to 10 percent review. That would 
certainly send a message and would begin to focus on the 
importance of making sure we are accurate on all of this.
    Data mining is also an opportunity for us to take a look 
and try to identify maybe school districts that are having 
difficulties and maybe focus time and attention on those 
individual schools.
    So there is a lot of activity going on in this space. And I 
think we will see significant reductions in those numbers over 
time.
    To the issue of trans fats, it isn't something I have had a 
chance to talk to our team about because, obviously, the ruling 
came out from FDA today. But I did notice that 85 percent of 
food processors are already well on their way. There is a 3-
year implementation time line, so I wouldn't anticipate that 
this is going to create serious and significant problems in 
terms of standards relative to school lunch.
    Mr. Salmon. Do you think there might be an onslaught of 
litigation from attorneys toward some of these food companies 
that have been using trans fats in the last several years? I 
mean, is that a possibility?
    Secretary Vilsack. I want to make sure I understand your 
question. You mean in terms of people suing because of trans 
fats?
    Mr. Salmon. Right.
    Secretary Vilsack. Well, as a lawyer, people can be pretty 
creative and look for opportunities potentially. I don't think 
you can discount that possibility.
    I would certainly hope that, you know, honestly that we 
would be looking for ways in which we could find consensus and 
not conflict on issues involving nutrition.
    I am told that our school meals and snacks are already 
limited to zero grams of trans fats, so we are already where we 
need to be.
    Mr. Salmon. Thank you.
    Thank you.
    Chairman Kline. The gentleman's time has expired.
    Mr. Polis?
    Mr. Polis. Thank you. Thank you, Mr. Chairman.
    And Mr. Secretary, thank you for your testimony today as 
well as the time you recently took to travel to my district and 
hear from many of my constituents. And I certainly appreciate 
your diligent work in the realm of child nutrition, a passion 
and a cause that I share with you. And there has been a lot of 
discussion about that today.
    But I did want to bring some other items to your attention 
as well.
    Specifically, I wanted to talk about the idea of 
establishing conservation compliance enforcement parameters 
around agricultural support programs that are funded by the 
Federal Government.
    As you know, this concept dates to the Reagan 
administration attempting to curb environmental concerns 
through limiting taxpayer support and subsidies. It can help 
make sure that we can address environmental impact and reduce 
exposure to taxpayers.
    Specifically, the conservation compliance enforcement 
program focuses on reducing soil erosion, protecting the long-
term capability to produce food, to make sure we don't do 
anything to increase short-term production at the expense of 
the long term, reducing sedimentation, improving water quality, 
and preserving and protecting wetlands.
    What we saw, however, in a 1995 inspector general's report 
is that 20 percent of growers who see large federal subsidies 
are simultaneously failing to comply with the conservation 
standards surrounding impacts to the erosion of wetlands.
    So that is a lot of money that goes to those who are 
causing irreparable damage to some of our most unique and 
fragile ecosystems.
    In last year's farm bill, I was thrilled to see the 
conservation compliance language added back into the law for 
crop insurance subsidies.
    But with a track record of 20 percent noncompliance, I 
wanted to ask how USDA can better implement and enforce this 
provision going forward, if you have any more recent statistics 
than the inspector general's report from 20 years ago or if 
there are plans under way to come up with new statistics with 
regard to noncompliance, and how you plan to use the tool of 
withholding subsidies to ensure compliance.
    Secretary Vilsack. June 1 was an important date in terms of 
conservation compliance because on that date operators who 
didn't have on file their AD-1026 form were required to do so.
    This is a new opportunity in a new area, particularly for 
specialty crop producers. And so we have made a concerted 
effort in terms of outreach to remind folks of that requirement 
and to also remind them of the consequence if they didn't file 
the 1026 form.
    They now have an opportunity and responsibility for 
developing and devising a plan and for our local NRCS offices 
to ensure that those plans are followed.
    I can tell you that I am very proud of the fact that we 
have a record number of producers now enrolled in voluntary 
conservation of one sort or another. Well over 500,000 
producers are participating in conservation, well over 400 
million acres, which is a record. That number continues to rise 
and will no doubt continue to rise with the farm bill programs 
that we have, including the regional conservation partnership 
program.
    You know, we are looking for ways in which NRCS can provide 
more technical assistance, more on-the-ground assistance, and 
less paper shuffling, so we just recently launched the NRCS 
gateway which allows for operators to be able to access 
information online at their convenience without the necessity 
of coming to an office. That should free up folks to do more 
technical assistance, more review, more compliance activities.
    I don't know that there is any more recent study on the 
issue that you have raised. And I will certainly ask when I get 
back to the office if there is, and if there is we will get it 
to you.
    Mr. Polis. And I think you alluded to this, but it sounds 
like you are doing what you can through automation to free up 
staff time and resources to ensure that the program succeeds.
    Secretary Vilsack. I would encourage you and your staff to 
take a look at the new gateway that we launched. I think it is 
a great opportunity for saving time and effort. It complements 
the work that we are doing on the farm loan side with some of 
the automation that has taken place recently in terms of 
reporting.
    Mr. Polis. And what about utilizing the tool of withholding 
subsidies for noncompliance?
    Secretary Vilsack. Well, that is the ultimate 
responsibility or ultimate penalty if folks are not in 
compliance. And that is the law, and we will obviously follow 
the law.
    Mr. Polis. Thank you.
    And I yield back the balance of my time.
    Chairman Kline. I thank the gentleman.
    Mr. Rokita?
    Mr. Rokita. I thank the chairman.
    Good morning, Mr. Secretary.
    As chairman of what we colloquially call the K through 12 
subcommittee on education here on this committee, I have gone 
to schools all over Indiana and all over the country and stuck 
my head in a lot of garbage cans to see what was in there, took 
a lot of school lunches. And I know you do the same thing 
across the country. And I am sure you would agree as well that 
the best part of that experience is talking with the kids. I 
seem to learn a lot. They continue to teach me at least.
    One of my concerns throughout all this and the several 
hearings we have had, though, is the potential for waste, 
fraud, and abuse and perhaps the real waste, fraud, and abuse, 
whether it is the fraud documented in the WIC program or the 
ineligible students that are receiving free and reduced 
breakfasts and lunches.
    And I appreciate the discussion we have had about you 
needing to see more than 3 percent in terms of a sample. And 
you have offered 10 percent as a goal that should be changed in 
law.
    If you do that on a school-wide basis, though, 10 percent, 
shouldn't the schools also at least get a 10 percent sampling 
of the applications? Because I understand right now they only 
do about 3 percent under the law as well.
    Secretary Vilsack. Well, I think the goal here is to figure 
out a way in which we can hold folks accountable and to figure 
out ways in which if there is--
    Mr. Rokita. Is 3 percent at the school level?
    Secretary Vilsack. I am sorry, what?
    Mr. Rokita. Is the 3 percent application sampling at the 
school level?
    Secretary Vilsack. Let me check on that. I don't know.
    Yes, that is accurate.
    Mr. Rokita. Should we raise it to 10 percent?
    Secretary Vilsack. Well, to the extent that we think 
looking at more applications will provide us more information 
that will allow us to reduce error rates, I would be in favor 
of anything that would enable this.
    You know, obviously, we don't want to necessarily create 
busy work for schools. But I think we need to explain to them 
that this is an issue that we are all concerned about and they 
have a responsibility to work with us to reduce the error rate.
    Mr. Rokita. I might be willing to help you with that in 
light of other technologies or other ways we can get to the 
bottom of waste, fraud, and abuse. I think you make a 
reasonable request.
    As I have gone to one school in particular, I believe it 
was in Lafayette, they made me a batch of mashed potatoes under 
their current goals and guidelines, and they were god awful. 
And then they made me a batch of mashed potatoes under the 
regulations that they have to get to within the next 10 years, 
and they were just terrible.
    Have you had any of those experiences? Or have all your 
experiences been good?
    Secretary Vilsack. Well, look, I think you could probably 
go to schools, if you went to all 99,000 schools that are 
currently trying to comply, you would find a circumstance, a 
day, a meal, an entree that probably you wouldn't like.
    That is why we have focused on ways and strategies to help 
school districts do a better job. Part of it is bringing chefs 
into the schools to explain how you might be able to utilize 
better cooking techniques.
    That is why we have focused on school equipment grants to 
give schools the ability to produce meals on-site. It is why we 
have developed our Team Up for Success program, linking 
struggling schools with succeeding schools so they have got a 
mentor who is in a similar circumstance to say, hey, you can do 
this.
    Mr. Rokita. I have found, Mr. Secretary, I found creative 
people there. I mean, these were deep-fry cooks, okay? And the 
first batch of mashed potatoes actually had butter buds in 
them, so they were already using substitutes and things like 
that. And then the new regulations, the new batch of mashed 
potatoes, demonstrated regulations that had under 30 milligrams 
of sodium.
    I mean, at some point you have got to--but all right, I 
understand what you are saying. Maybe the chefs can come to our 
schools in Indiana.
    Going to the department of integrity that you speak of, 
interested in learning more about that. Do you have all the 
teeth you need in law for this?
    Secretary Vilsack. I am sorry, what?
    Mr. Rokita. The department of integrity you speak of, do 
you have all the teeth that you need in current law in order to 
make that department of integrity work? Or what do you envision 
it doing that is actually going to make a difference?
    Secretary Vilsack. Well, it is starting, I think, with 
taking a look at the application process and determining 
whether or not there are ways in which we can prevent errors 
and mistakes on applications that increase the error rate.
    It is also working with software producers to develop an 
online application process that could potentially reduce errors 
as well.
    You know, obviously, if we are given more capacity and more 
opportunities to look at more schools, there would be a 
responsibility there as well.
    There is data mining that can be done to take a look at 
where if we have repeat issues involving a particular state.
    And it may be able to identify where standardization, 
additional training in a particular state might be helpful.
    Mr. Rokita. I am out of time. I am sorry. Thank you very 
much for your questions.
    Chairman Kline. I thank the gentleman.
    Mr. Sablan?
    Mr. Sablan. Thank you very much, Mr. Chairman.
    And Mr. Secretary, welcome. It is always nice to have a 
conversation with you, sir, and you know, especially when you 
are reporting to us that about 90 percent, that over 90 percent 
of our schools in the country are now meeting the national 
guidelines for the school meal program.
    And I don't know what it was like around the family dinner, 
but my experience is that it is always that kid, meaning me, 
who made a stink about eating vegetables growing up. And I 
would get all the attention while everyone else quietly enjoyed 
what was put on the table.
    So it is good to hear that 90 percent of kids we are 
feeding with the program are getting along with it, if not 
complaining. I have heard some complaints from kids eating 
brown rice.
    But in my district where we all expect to eat white rice at 
every meal, the school system has gradually introduced more 
nutritious brown rice by adding a little bit over time. And I 
understand that this approach is working. And I cannot 
overemphasize what a significant cultural shift that 
represents.
    And I have to compliment the school system. The Northern 
Mariana Public School System received a block grant to support 
its child nutrition program. It serves over 14,000 meals each 
day to over 11,000 school children.
    Now, food costs have gone up since 1991, the year when the 
block grant started in the Northern Marianas. And I am 
concerned that there has been no review since then, whether the 
payment rates in the Northern Marianas are proportional to the 
costs of providing nutritious meals there as for Guam, for 
Alaska and Hawaii in 1979 in exercise of your authority to do 
so under Section 10 of the Child Nutrition Amendment of 1978.
    So my question is, would you be willing to exercise this 
authority again to review payment rates in the Northern 
Marianas so that you can set the appropriate reimbursement 
rates to reflect the costs of food in that area, in my 
district?
    Secretary Vilsack. Well, I would be happy to work with you, 
Congressman, on that issue. And obviously, more of a general 
comment on your comments, you know, we are pleased with the 
fact that we are seeing more fruits and vegetable consumption 
by kids as a result of these standards.
    And honestly, you know, when we deal about food waste, I 
hope that maybe, if it isn't this committee, some committee 
will work with us to deal with the fact that today in America 
30 percent of all the food that is produced in this country is 
wasted, 30 percent. It is 133 billion pounds of food. And that 
is a global issue as well.
    And if you think about 30 percent, you think about all the 
costs associated with producing that, it is a focus of ours 
now. We have over 2,000 partners that are looking at ways in 
which we can reduce food waste across the country.
    Mr. Sablan. Yes. And Mr. Secretary, when I signed up for 
the Army Reserves, I actually almost got turned down because I 
was fat, obese. But a number of recent studies indicate that 
one-third of all children between the ages of 6 and 9 are 
overweight or obese.
    In talking about the childhood obesity epidemic in this 
country, I think it is sometimes hard to make the link between 
obesity and hunger. Can you help clarify that link to us, 
please?
    Secretary Vilsack. I am sorry, I didn't catch the last one.
    Mr. Sablan. Can you clarify the link between obesity and 
hunger?
    Secretary Vilsack. It is somewhat difficult for some to 
understand that they can sometimes be twin challenges that a 
particular youngster could face.
    If you live in a family that is struggling financially, 
then they are looking for food products that will basically 
provide substance, but also try to deal with the pangs of 
hunger, so oftentimes they look at processed foods.
    Those families may have limited access to full-scale 
grocery stores. That is one of the reasons why we have improved 
the SNAP program to allow the redemption of EBT benefits, SNAP 
benefits at farmers' markets. That is why we have the food 
insecurity initiative that we launched to encourage more fruit 
and vegetable consumption for SNAP families.
    It is why we have developed recipes for SNAP families to 
figure out ways in which they can provide more nutritious, less 
empty-calorie meals.
    And it is a challenge. And frankly, it is something that 
you have mentioned that you are challenged. I had the same and 
continue to have the same challenge.
    I still remember the fact that my mother put a cartoon on 
the refrigerator at our house of a very, very overweight kid 
with a beanie cap, which was a way of telling me to stay out of 
the refrigerator.
    Mr. Sablan. Mr. Secretary, before I run out of time, again, 
we have a standing invitation for you or Ms. Rowe to come to 
the Northern Marianas.
    And I would be remiss if I don't mention the energized and 
new relationship we have, whether it is with your people in San 
Francisco, your Honolulu folks are very attentive to us, and 
even your Guam people. I just want to mention that renewal of 
cooperation and I appreciate it.
    And thank you for your leadership.
    Chairman Kline. The gentleman's time has expired.
    Mr. Brat?
    Mr. Brat. All right. Mr. Secretary, thank you for being 
with us here today.
    I have got a couple of questions. The ranking member made a 
comment. It is our job to provide nutritious meals. I think 
most of us agree with that statement in the short run, but I 
want to get your thoughts on what you would make of that in the 
long run, both on the economic front and on the ethics front.
    I think we have got a few issues coming up. The governor's 
wife from Virginia came up and sat in your seat a few weeks 
ago. We have got $127 trillion in unfunded liability issues 
coming our way. And the impact of that, that is the entitlement 
programs plus interest, by 2032--I am on the Budget Committee 
and the CBO director has a nice graph--it is not a nice graph--
by 2032, those four programs plus interest take up all federal 
revenues. So that is where we are heading.
    So if you look at a military crisis or education crisis, 
right now the Budget Committee has a third of the budget to 
deal with the discretionary funds. By 2032, we have zero in 
discretionary funds. So there is the economic backdrop.
    And then on the ethical backdrop, our job to provide 
nutritious meals. And that leads into a host of complexity. Do 
we provide breakfasts, lunches, dinners, backpacks going home 
for the weekend?
    If you refuse to do any of this, are you less than 100 
percent compassionate?
    Along with this, health care, daycare, obesity programs. We 
have heard folks note this is a national defense, a national 
security issue.
    And then anything run at the federal level, we have 
bureaucratic costs added to all this.
    And so going forward, we have a crisis coming our way in 
economics if you incentivize the state, which is what I think 
we are doing through these programs, to care for kids. I get 
nervous about the caring and loving part, the more and more the 
federal role increases and the less and less the role of the 
parent decreases.
    I get the tension, we all want to take care of the kids. I 
don't think there is any disagreement on that. We want to do 
the right thing. But education, and I taught in college for the 
last 18 years, education is precisely about educating kids and 
hopefully parents, and how this has not happened is part of the 
crisis, so they can live autonomous lives in the future and 
families can live intact.
    And so, I mean, one way to state, is there any upper bound, 
philosophically in your thought, on the role of the state in 
caring for our kids? And is this a short-run glide path toward 
the next 16 years as we run into more and more economic 
headwinds?
    I think we want to solve this problem in a better way. I am 
willing to go along in the short run for the sake of the kids. 
But in the long run, I don't want to be sitting here at the 
federal level micromanaging all these micro issues that I think 
belong at the state and local and, optimally, at the parent 
level.
    So I just want to get your high-end thoughts on that.
    Secretary Vilsack. Well, Congressman, you have raised 
obviously some really important questions. And frankly, as you 
were asking your question, I was actually thinking back to my 
childhood where I started out life in an orphanage and I was 
adopted into a family where my mother suffered from alcoholism 
and prescription drug addiction. And she was, you know, she was 
a mean lady when she drank and she was a wonderful woman when 
she stopped.
    But during the time that she was drinking, she was not 
there, she was just flat-out not there.
    You know, I think there are unfortunately and tragically a 
lot of families that deal with those kinds of issues. And you 
know, somebody has got to be there, okay? Somebody has got to 
be there.
    You would hope that it would be a family member. You would 
hope. You would want it to be a family member. And you would 
want that family member not to feel overwhelmed.
    But maybe if you are dealing with two part-time jobs and 
you are trying to juggle a couple of kids and you are taking in 
your sister's kids because she is having problems, I think it 
is overwhelming. So there has to be some way in which we 
provide some assistance.
    You know, we send our children to school. And obviously, 
you know, when they are in school this whole loco parent is 
notion, you would hope that the school district is taking care 
of them, protecting them, feeding them well, and teaching them 
well, so that at some point in time the light bulb turns on and 
the kid basically says, you know, I want a better life, I want 
a better way, I am going to work hard, I am going to do what I 
need to do.
    I mentioned I was in Baltimore yesterday. You know, I went 
to this library, saw wonderful, beautiful young kids who were 
there reading. I don't know what their family circumstances 
were. But as our car pulled out of that library, there were 
three pop, pop, pops, and I thought it was, you know, a tire or 
something, you know. My security guy goes, sir, did you hear 
those gunshots?
    You know, somebody has got to be there. Somebody has got to 
be there. I would like it to be mom and dad, but sometimes that 
is just not possible. So somebody has got to be there.
    Chairman Kline. The gentleman's time has expired.
    Mr. Takano?
    Mr. Takano. Thank you, Mr. Chairman.
    Thank you, Secretary Vilsack, for all the great work you 
have done on improving nutrition. I really commend this 
administration for being leaders in this area.
    I would like to ask unanimous consent to enter in the 
record a statement from Rodney Taylor, the director of 
nutrition services at the Riverside Unified School District. It 
is a brief statement, I will just read it. ``In considering the 
reauthorization of the Healthy, Hunger-Free Kids Act, the 
question we must ask ourselves is, how much are the lives of 
our children worth? The Healthy, Hunger-Free Kids Act seeks to 
reinforce the recommendations made by the Institute of Medicine 
in aligning the school food program with scientific research.''
    ``While millions struggle with obesity and hunger, 
standards provide one structured approach. As a country, as 
parents, as people with moral consciences, we owe it to our 
children. The Healthy, Hunger-Free Kids Act gives all children 
the chance at living a healthy life. The cost to do nothing is 
far greater than the inconveniences in implementing what is 
already in place in most school districts.''
    Along those lines, I ask unanimous consent it being entered 
into the record.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Chairman Kline. I think you just did put it in the record, 
but of course, without objection.
    Mr. Takano. Thank you.
    In California, our schools are required to meet higher 
standards for meals, about 5 years before the Healthy, Hunger-
Free Kids Act was last reauthorized.
    For schools in my district, state law helped them to be 
ready for the federal standards and demonstrated that these 
kinds of changes can be implemented on a large scale.
    Can you point to other examples where schools or states led 
the way for improving nutrition for children?
    Secretary Vilsack. Well, I think there are probably 
examples of school districts in every single state where there 
was a concerned group of parents or a concerned superintendent 
or principal or a concerned group of teachers or a combination 
of school nutrition personnel that knew that they could do a 
better job and a better way.
    But there are many, many school districts that, for 
whatever reason, have transitioned to a sort of a central 
kitchen in order to save money. And now they would like to do a 
better job, which is why the school equipment program is so 
important.
    Some of the school districts that you have had the chance 
to see probably equip themselves, probably spent the resources, 
had access to the resources. Not every school district has 
that. That is why the school equipment grant is so important.
    Mr. Takano. Well, thank you. I can just mention that my 
school district, the largest school district of which Mr. 
Taylor is the director for nutrition services, has been, we 
don't have exceptional resources. He has been able to improvise 
and do what he needs to do. But he has been so inspirational to 
me. I have visited his facilities.
    He has used the buying power of the school district to 
support the local farmers in our area. The food is fresher and, 
therefore, more appealing to the young people.
    He has strategized in terms of where he puts the salad bar. 
And by the way, he has implemented salad bars in nearly all of 
the schools. And he puts the salad bar first so that the young 
people have a chance to make healthier choices first. And just 
that simple innovation of one, well, two innovations, the salad 
bar and where you put the salad bar. If all the students are 
filing past the salad bar first, they are going to make choices 
for healthier food first.
    Secretary Vilsack. Cornell School of Nutrition has put 
together a series of steps similar to what you have outlined in 
terms of placement. Even if you name the vegetable, we found 
with elementary school kids if you name carrots the x-ray 
vision carrots, that will encourage kids to basically try a 
carrot or two. So there are strategies.
    And in fact, we have put together 2,500 toolkits of the 
best practices and strategies to distribute to school districts 
that are trying to figure out how to do this. You don't have to 
reinvent the wheel. There are a lot of school districts that 
have already figured this out and are happy to help.
    Mr. Takano. Yes. And Mr. Taylor, I know, has been traveling 
around the country helping other school districts. And I thank 
you and your department for, you know, showing us the best 
practices. And he has definitely shown our community that this 
can all work.
    His own story is he grew up in a very, very poor 
environment. He knew what hunger was. And he has committed his 
life to making sure that none of our children today have to go 
through that. And he has been a real inspiration to our 
community.
    We thank you for the standards that you are trying to 
implement.
    Chairman Kline. The gentleman's time has expired.
    I can't help but wonder if those kids are disappointed when 
they don't get x-ray vision.
    Mr. Allen?
    Mr. Allen. Thank you, Mr. Chairman.
    And thank you, Mr. Secretary. It is good to see you. 
Appreciate you coming over and talking about the lunch program.
    You know, in Georgia we fully embrace the dietary 
guidelines set by the Federal Government. And you know, it is a 
no-brainer that we want our kids to be healthy. And to do that, 
they need to be eating nutritious foods.
    Out of the 264 schools, Georgia has only five schools that 
have not met the 6 cents certification guidelines for healthier 
school meals. That speaks volumes about the dedication of 
Georgia school nutrition professionals to serving health meals 
while adhering to federal mandates.
    However, Nancy Rice, director of the School Nutrition 
Division of the Georgia Department of Education, says that 
Georgia continues to face challenges with federal mandates. Of 
particular concern are sodium requirements, explaining those 
mashed potatoes, and implementation of the USDA smart snacks 
and the paid lunch equity program.
    And the fact is I have been in the schools and I always go 
back to the kitchen and talk with the personnel who are 
preparing the foods. And you know, a lot of those folks just 
aren't happy about what they are having to do.
    The sodium requirement is as low as the prescriptive low-
sodium clinical diet. And of course, back when I played 
football they made us eat sodium tablets so, you know, it just, 
I guess, depends on how much exercise you get.
    But kids don't typically eat this way at home, so when at 
school they think something is kind of wrong with the food. And 
that might explain why they don't eat it in some cases.
    But the implementation of the USDA Smart Snacks has caused 
a significant loss in participation in revenue for Georgia 
schools. The revenue losses ranged from $79,000 to as much as 
$5 million for the 2015 school year.
    The school food directors are seriously concerned about 
their food service and operational finances. They say that 
staff is what will have to be cut first if things don't change.
    As you state in your testimony, flexibility is important to 
comply with federal standards for child nutrition. And how can 
we work together to provide flexibility for the sodium 
requirements and the USDA smart snacks or the paid lunch 
equity?
    Secretary Vilsack. Well, Congressman, I think on the sodium 
there are basically three targets that have to be met. And in 
fact, we have provided a 10-year phase-in on the sodium 
requirement and have provided that flexibility that we don't 
move from target one to target two until the dietary guidelines 
basically establish that it is appropriate.
    So we have been working with the food processing companies 
to make those adjustments. And clearly, there will be an 
adjustment.
    But over time, we spent some time at the McCormick facility 
in Maryland where they showed me how you can use spices to 
replace salt. And the meal that they served me was 
extraordinary, within the calorie guidelines. So there are ways 
to do this.
    So there has been flexibility provided in the sodium, and 
there has also been flexibility provided in terms of the pay 
equity issue. You know, obviously, we want to make sure that we 
aren't reimbursing or overcompensating school districts for 
paid meals, that they aren't subsidizing their paid meals 
improperly.
    But if they have, you know, adequate reserves we give them 
some flexibility. So there has been flexibility put in those 
two areas.
    On the smart snack piece of it, again, I would be happy to 
get information from you in terms of the school districts and 
we could try to work with them to see if there is a reason why 
they are losing the resources that they are losing. Maybe we 
could help with that.
    Mr. Allen. Okay. We will do that and I appreciate your 
offer to do that.
    After the federal child nutrition standards were 
implemented in 2012, we did see a drop in participation in 
school lunch programs. And clearly, these standards are having 
unintended effects.
    Am I hearing that we are doing better now? Or do we have 
plans to significantly decrease this decline in the school 
lunch participation?
    Secretary Vilsack. Well, you know, we may have some 
disagreement about the extent of the decline.
    As I mentioned earlier, of the over 99,000 schools in the 
country today, only 58 have dropped out. And some of those who 
have dropped out are coming back in. There is an article in the 
Houston Chronicle that I mentioned earlier that outlined 
several of those coming back in.
    We know that there are multiple reasons why an individual 
student may not participate. It may very well be some of the 
concerns that have been expressed here. But it may also be we 
have seen a rather dramatic increase in free and reduced lunch. 
It may be a situation where folks at home feel that they will 
do better for less. And we saw actually this trend occurring 
before the guidelines occurred.
    So the challenge here, I think, for us is to continue to 
focus on best practices, continue to look for ways in which we 
can make these meals as pleasing as possible and to work with 
schools that are struggling. That is why we created the Team Up 
for Success.
    We started it in the deep south with a number of school 
districts. We took them down to the University of Mississippi 
where they worked for a day-and-a-half with them, looked at 
procurement, looked at financing, looked at meal menus. We have 
received good, positive feedback, so we have extended that 
program, so by the end of this year we will have touched all 
regions of the country with this effort to try to team up 
succeeding schools with struggling schools.
    Chairman Kline. The gentleman's time has expired.
    Ms. Fudge?
    Ms. Fudge. Thank you very much, Mr. Chairman.
    And thank you, Mr. Secretary, for being here.
    Let me just say that I think that what we spend on feeding 
kids in this country is a great value, especially since we 
spend about $3 million per hour on war that we have never 
authorized.
    Mr. Secretary, non-profit organizations and schools have to 
operate after-school meal programs and the summer meal program 
separately. These programs serve the same kids, the same meals 
at the same location, just at different times of the year.
    Now, they have different sets of paperwork and often 
operate under different state agencies. It is a huge burden of 
paperwork. Is there any opportunity to streamline these 
programs and make them easier to operate?
    Secretary Vilsack. Well, the answer, obviously, we should 
look for ways in which we can streamline the programs. And 
yesterday in Baltimore we sort of committed ourselves to a 
demonstration project in the city of Baltimore to see if we 
could work on creating a process.
    Apparently, we have a rule that says you can't serve three 
meals at the same location. And so we are going to have a 
demonstration project to take a look at whether or not we can 
do that and what the concerns might be.
    So there are obviously ways in which we would look for 
streamlining. And if you have suggestions, we would be more 
than open to them.
    Ms. Fudge. Thank you.
    Congressman Fortenberry and I introduced a bipartisan Farm 
to School Act of 2015. And the cornerstone of that act is to 
provide flexibility to local schools and communities to include 
preschools in the USDA Farm-to-School program.
    Can you speak to the benefits of Farm-to-School for 
children and why you would support this additional flexibility 
in the program for early childcare settings?
    Secretary Vilsack. Well, the Farm-to-School program has 
been extraordinarily successful. We have done 221 grants and we 
have recently surveyed school districts and we have found that 
there is about, of the school districts that have been 
surveyed, about $350 million of economic benefit associated 
with Farm-to-School.
    So one of the benefits is basically keeping resources that 
are generated in a community in the community, instead of 
sending your resources for meals a thousand miles away and 
benefiting some other community, if you will.
    So there is an economic benefit. There is obviously a 
freshness benefit. People like the idea that they are helping 
their local producers and they like the idea that kids can 
learn about what is being grown and raised in their vicinity.
    We know that there is a multiple-billion-dollar opportunity 
here. It is particularly helpful to small- and medium-sized 
producers.
    And kids get access to fruits and vegetables that they 
might not otherwise consume. So you know, to use a trite 
phrase, it is a win-win situation.
    And frankly, school districts are learning that they can do 
this in a way that doesn't break the bank and that it is quite 
popular.
    You know, we have done quite a bit of good with a 
relatively small amount of money. The program has $5 to $6 
million in grants. And what we do with those resources is we 
acquaint people with what is grown in their vicinity and their 
district within a 150-, 200-mile radius. We help them with 
procurement, so they know how to contract. And then we 
basically steer them potentially to food hubs and other 
facilities that can provide sufficient quantity to satisfy 
them.
    Ms. Fudge. Thank you, Mr. Secretary.
    Let me ask just one last question and it is about summer 
meals. We have had a number of hearings where both sides 
testified that summer meals are significantly important to 
young people.
    But in the state of Ohio, only about 10 percent of low-
income children are getting summer meals, where the national 
average is about 16 percent, both still low.
    But what solutions should this committee consider to ensure 
that programs like summer meals are flexible enough to serve 
kids in need?
    I look at just my largest city, which is the city of 
Cleveland; 54 percent of all the kids there live in poverty. So 
the need is there, how do we address it?
    Secretary Vilsack. Well, I think it is a partnership that 
requires local engagement and involvement from local political 
leaders. Mayors, governors have to be engaged, and if they are 
we have seen dramatic increases.
    I would say one thing that we need to do is to figure out 
ways in which we can go to where the kids are as opposed to 
having the kids go to where the meals are.
    We know and I suspect you know in your city you know where 
kids will congregate during the summer. And we need to figure 
out ways in which we can be flexible enough to be able to 
ensure that meals go to them, if it is a playground, if it is a 
swimming pool, if it is wherever they congregate.
    In my town where our kids grew up, it was the little league 
diamond is where kids basically congregated during the summer 
months.
    So ways in which we can go to the where the kids are. Right 
now, our process is that kids have to go to a central location. 
And sometimes they know where that central location is and we 
are trying to make it easy for parents to understand where that 
is, but it is oftentimes difficult to get there.
    We are trying to make it nonthreatening. That is why 
libraries are important, that is why schools, the seamless 
program are important. Any way in which we can continue to 
promote flexibility and access we would be certainly looking 
forward to working with you on.
    Ms. Fudge. Thank you very much.
    Chairman Kline. Thank the gentlelady.
    Mr. Curbelo?
    Mr. Curbelo. Thank you, Mr. Chairman. And I look forward to 
working with you, the subcommittee chairmen, and all of my 
colleagues on this important issue.
    And thank you, Mr. Secretary, for your presence here today 
and your testimony.
    My first question is prompted by some frustrations in the 
state of Florida with regards to transportation. As you know, 
all current USDA food commodities ordered for the state of 
Florida must be placed on a truck of all like material.
    Would it make more sense to create mixed-product loads to 
decrease costs to smaller school districts or to use smaller 
trucks to offset some of the costs incurred by ordering these 
large truckload quantities?
    Secretary Vilsack. Congressman, it seems like a reasonable 
proposal and suggestion. I would be more than happy to take 
that back to the office and see if there is a possibility for 
us working. You know, we are very focused at USDA on process 
improvement and this sounds like it would be an improvement. So 
I would be happy to look into it.
    Mr. Curbelo. I would appreciate it. Because for large 
districts like Miami-Dade County this is not a major challenge, 
but for some of our rural districts it certainly has posed 
challenges.
    My second question is a little broader. And I served on the 
Miami-Dade County School Board. And oftentimes, I would think, 
you know, it is great that we are making this effort to try to 
help kids have a healthier diet while they are in our schools. 
But if they go back home and continue their poor eating habits, 
maybe we are just spinning our wheels.
    Do you have any ideas as we look ahead at this 
reauthorization as to what we can do, if anything, to empower 
parents to really take ownership over their children's diets, 
and understand that while the schools can help this is really 
primarily the responsibility of parents and families?
    Secretary Vilsack. Well, one thing, I think we have seen a 
remarkable increase in parental involvement and interest when 
kids basically establish a school garden and are able to 
produce food that they then consume or invite parents to the 
school so that the parents can go through the salad line and 
have the tomato or the carrot or the cucumber that a child 
actually produced through their efforts.
    Basically, creating those kinds of opportunities where kids 
get excited about fruits and vegetables that they have produced 
and then are able to proudly display them to mom or dad or 
working with local grocery stores where, again, they are 
willing to have a display of a locally produced school.
    You know, I know that whatever kids are involved in and 
whatever they are proud about parents take notice. And one way 
to do that is potentially creating an opportunity within 
schools for more community gardens and schools gardens that 
kids could then bring mom and dad into as a suggestion.
    But I will think about your question. That is the best I 
can do right now. But if I come up with a better answer I will 
be glad to convey it.
    Mr. Curbelo. I appreciate it. I just think it is important 
because we are making significant investments. And we all know 
what a tough time a lot of the school districts are having 
complying.
    And this is all important. I don't mean to diminish it, 
because it does make a difference. But the problem of child 
nutrition and childhood obesity I don't think will ever be 
solved until families in this country take ownership for their 
children's health and diet and do the best they can to promote 
healthy lifestyles at home.
    Secretary Vilsack. Well, that is true. I mean, it isn't 
just what they consume, it is also how active they are. And 
that is something parents clearly have an opportunity to 
promote, which is physical activity, getting kids outdoors, 
having them participate in some kind of activity that gets them 
moving, as the first lady's Let's Move initiative is focused 
on.
    And certainly, school districts are looking for creative 
ways to get kids recess time. So there are ways I think in 
which parents can be engaged in a positive way on this.
    Mr. Curbelo. Well, thank you, Mr. Secretary.
    Thank you, Mr. Chairman. I yield back.
    Chairman Kline. I thank the gentleman.
    Ms. Bonamici?
    Ms. Bonamici. Thank you very much, Mr. Chairman. And thank 
you to you and Ranking Member Scott for holding this hearing.
    And thank you, Secretary Vilsack, for being here today, for 
your department's dedication and for your very passionate and 
personal response about the need for these programs.
    I spent many years working in a legal aid office and you 
quickly discover that people don't struggle by choice. It is 
unfortunate circumstances, typically lost a job, health care 
bills they couldn't pay, et cetera. So appreciate your 
meaningful answer there.
    And you know, like other committee members, I have visited 
a lot of schools and had lunch with many students. I try to 
avoid sticking my head into the garbage can, but I have looked 
in there.
    We have great salad bars out in Oregon in our schools. The 
school gardens which you mentioned, Mr. Secretary, are great 
programs, that nutrition education that kids take home with 
them and talk to their families about.
    And I agree with Subcommittee Chairman Rokita. I learn a 
lot from talking to students. I was actually in our state 
legislature when we got the junk food out of the vending 
machines in schools. And the most passionate, compelling 
testimony came from students who talked about how they would be 
in a nutrition class learning about health and then go out in 
the hallway and see vending machines full of junk food and that 
sent inconsistent messages. The students were very persuasive 
there.
    So I am really hopeful that this committee will work 
together to successfully reauthorize the child nutrition 
programs and build on the success of the Healthy, Hunger-Free 
Kids Act.
    I appreciate hearing the concerns from my colleagues.
    So I wanted to talk a little bit about something that 
doesn't get as much attention, and I am really pleased to be 
partnering with our committee colleague from New York, 
Representative Stefanik, on legislation that will strengthen 
the Child and Adult Care Food Program.
    I appreciate Representative Stefanik's interest in this 
program and I look forward to working together to put CACFP on 
stable footing for the millions of children it serves each day, 
children in preschool, in daycare. The CACFP also provides 
after-school programs and emergency shelters.
    So I wanted to begin with asking you about the department's 
process for preparing new meal standards. Why are the new meal 
guidelines important?
    And then I also want to ask, following up on Representative 
Fudge's issue about streamlining. The USDA is working with some 
of the large sponsors in the CACFP program to simplify their 
interactions with state agencies and help those sponsors avoid 
needing to submit similar paperwork for multiple states.
    So can you talk both about preparing the meal standards and 
guidelines, and then also simplifying the paperwork for multi-
state sponsors?
    Secretary Vilsack. Well, there are over 178,000 
participating locations in the program that you have asked for. 
And obviously, it is important for us to make sure that in all 
of those locations, to the extent they involve children, that 
we are sending a consistent message right through the entire 
process, consistent message with WIC, consistent message with 
SNAP and SNAP-Ed, consistent message at the school, consistent 
message with summer feeding.
    So it is important that we ensure that the messages that we 
are sending are consistent.
    So obviously, we rely on the experts to give us a sense of 
what ought to be served to these youngsters and how it will be 
consistent with what they are likely to be served in the future 
at school and summer feeding and down the line.
    You know, it is important, I think, that we recognize that 
the reimbursement rates are relatively the same. They don't get 
the benefit of the 6 cents increase, but in terms of the 
reimbursement rates relatively the same. So you know, I think 
it is trying to remain consistent.
    Now, the issue of process, we are engaged at USDA, as I 
mentioned earlier, in a process improvement effort. And if 
there are ways in which we can reduce duplication of paperwork 
I am all for it. And that is why I think we are pushing 
community eligibility, why we are pushing direct certification.
    These are all ways of producing better product, greater 
access, less cost, less administrative hassle and fewer errors.
    Ms. Bonamici. And before my time runs out, I also want to 
ask, we want to make sure that the CACFP works well for small 
providers. Can you talk a little bit about the importance of 
keeping the small providers connected, especially in rural 
areas? How can the department work together to encourage CACFP 
participation?
    Secretary Vilsack. Working through our state partners, we 
want to make sure that just because a youngster is raised in a 
small town doesn't necessarily mean that they should get 
inadequate service or no service or improper service.
    My kids were in a very small daycare facility in a small 
town. So I am very sensitive to the needs for kids in rural 
areas to have access.
    Ms. Bonamici. Terrific. And my time is about to expire. 
Thank you very much.
    Mr. Chairman, I yield back.
    Chairman Kline. I thank the gentlelady.
    I understand that the secretary has a hard-stop time near 
12:00. We have so much member interest here that I am going to 
have to take the draconian step of limiting members from here 
out to 3 minutes. And I will be fairly militant in cutting off 
the time.
    Secretary Vilsack. Mr. Chairman, in the interest of time, I 
am here for you.
    Chairman Kline. You are very generous. We are still going 
to limit to 3 minutes because I am respectful of your time.
    [Laughter.]
    I am afraid. I am doing the math here and we could go until 
well-past 12 if we don't limit the time.
    So with those new guidelines in place, Mr. Guthrie
    Mr. Guthrie. Thank you, Mr. Chairman.
    I just did school visits, I know a lot of us have talked 
about school visits at elementary, junior high, and high 
school, and learned a lot. And I think it is beneficial.
    And I sat down in roundtables with the people in the 
dietary world who do this and sat with them. And I said this 
when we started out, I said, look, this probably isn't going to 
go away. Anything that we want to do has got to be signed by 
the President. So what kind of things do you think would make 
it better, that you could work with to make it more flexible 
where the kids would eat more?
    And they came up with some pretty good ideas. And some of 
the things that we saw when we did the visit, there was one 
particular. When you do these, you get particular instances 
that it is hard to even explain.
    There was a hamburger, which I actually thought tasted okay 
with the whole-grain bun, but you can only get three pickles, 
so there was a person there guarding the pickle jar to make 
sure kids didn't get four pickles. And I remember the reporter 
going, well, what is wrong with pickles, there is no calories 
in them? Well, it is sodium.
    So it has gotten to where, you know, you had the lady there 
with the potatoes putting them in a little tray and she had to 
put four in because if a kid got five, instead of having the 
glove, reaching and putting them on the tray, the kid might get 
five, so that was a sodium issue as well.
    And so you do see these things with throwing fruit in 
there. The stuff that you hear, I actually saw. One kid at 
Davis County Middle School said it is the healthiest trash can 
in town probably. That was a quote from that young person.
    But they came, and so, how do we make it work given that we 
want this to work? And everybody at the table was in the school 
lunch program. And so they wanted kids to eat healthy, too. And 
they were saying if they could have flexibility on whole-grain, 
some flexibility. The whole-grain pasta just sticks together 
and becomes gooey, they said. No further decrease in sodium.
    And one parent suggested they can't have Thanksgiving 
dinner because there is too much either sodium or calories. If 
they do Thanksgiving dinner on Wednesday, they can't eat the 
rest of the week because it goes beyond. And a parent says, why 
don't we have one day a month or some number to have flex days 
that doesn't count? So I would say everything in moderation.
    And so when we sat down to say, how do we make the program 
that is in place work better, those are some suggestions.
    Do you have any comments on it? They sound reasonable to me 
from people in the system.
    Secretary Vilsack. Well, certainly, the whole-grain pasta 
issue was one that we recognized a concern about and provided 
flexibility. And that was extended to whole-grain generally.
    The sodium issue, we also recognized.
    We also made some adjustments on the protein and portion 
size issues so long as things fit within the overall guidelines 
for the week.
    So I think there is flexibility that we have provided. And 
I think there are creative ways to deal with that flexibility 
to provide wholesome meals.
    Mr. Guthrie. But within the authorization that is coming 
up, that, you know, might need to be included instead of just 
waivers and flexibility.
    But the thing of just the flex day where there could be, if 
it is PE day or field day, they could have pizza. I mean, it is 
just because if they do that--I understand it is during the 
week, but if they have a Thanksgiving meal they said it blows 
the whole week.
    Secretary Vilsack. Just, I mean, in terms of flexibility, 
we gave that opportunity, 1,900 school districts out of 15,000 
were granted the flexibility. So I mean, 2,300 requested it so 
it was a relatively small percentage of overall school 
districts and obviously a relatively small percentage of 
schools.
    Mr. Guthrie. They actually mentioned that--
    Chairman Kline. The gentleman's time has expired.
    Mrs. Davis?
    Mrs. Davis. Thank you.
    Thank you, Mr. Secretary. And thank you for sharing your 
personal story which I think really is compelling and reminds 
us there are many, many families that aren't able to take all 
the advice in the world that we would love to give them. And I 
appreciate that.
    I wanted to focus quickly, though, on California's historic 
drought right now because this has really exacerbated food 
insecurity for many, many of our families who are in areas 
where this really does matter. It means job losses. It is an 
accumulation of a host of issues.
    And I know you are familiar, obviously, with the electronic 
benefit transfer program and the fact that many of the families 
who would benefit from school meals during the year aren't able 
to do that. They don't have a facility, they don't have a place 
where they can go. And so expanding that program in these 
drought-stricken areas would be helpful in California.
    I know that, you know, I would love to see that. I would 
love to see that nationally. I think that this makes sense. The 
pilot programs have shown that it makes a difference.
    I think that young people who are not really able to get 
the nutrition they need in the summertime, they are going to 
lose out by not being in school to begin with and this 
exacerbates that problem.
    But what about those drought-stricken communities in 
California? I don't actually live in one as much as many of the 
communities, but I am concerned because this would be a good 
place to focus.
    Secretary Vilsack. Well, we agree and we are encouraging 
folks to consider in the appropriations process an expansion of 
the program because we know it works, we know it results in 
more fruits and vegetable consumption and healthier choices 
being developed for kids during the summer.
    And it does deal with the issue of a lack of access if you 
don't have a congregant site, someplace in your rural area or 
it is too far away, you don't have transportation or it is too 
dangerous to get to.
    So we are very much inclined to want to see an expansion of 
that program. And of course, it is really about dollars and 
cents. If the appropriators give us the resources, we will be 
glad to extend it. And if we extend it, we will obviously look 
at ways in which we can help people that are in distress.
    I have got a much more fuller-extent answer to the drought 
issue which we will be able to provide your staff.
    Mrs. Davis. Right. And I think that there certainly are 
issues. We know other countries have done a far better job with 
this. But for the time being, while we wait for that and a host 
of other remedies that are out there, this is a problem.
    So is there anything else that we can do to, I think, make 
the case that these EBT pilot programs really have demonstrated 
for us the fact that they work and they keep kids from losing 
what they could otherwise?.
    Secretary Vilsack. Well, I think it is basically responding 
to the fact that this is a program that reduces hunger, that 
responds to folks who are in severe distress, that expands 
access to fruits and vegetables, and at the end of the day 
expands reach. This program, at a minimum, gets to 30 percent 
of the kids versus the national average of 16. So you make a 
case you are getting more help to more kids.
    Chairman Kline. The gentlelady's time has expired.
    Dr. Roe?
    Mr. Roe. Thank you, Mr. Secretary, for being here. And 
thank you for your service to our country.
    And I am going to talk as fast as a Southerner can. So I 
have got to get mine in.
    I talked to one of our school directors in rural Appalachia 
where I live, 14,000 students, 67 percent free and reduced 
lunch. He says the kids are not eating, many of them are 
throwing the food away, kids are leaving there hungry. And I 
said, what do you do when they are hungry? He feeds them.
    And what Mr. Guthrie was talking about basically the food 
police deciding how many pickles you get on a hamburger, where 
we are from, the view we have is ridiculous; so when you limit 
the portions, the size, and I have eaten many school lunches. I 
like to go and talk to kids, so I do that a lot.
    I am not asking you to comment. I am just saying one school 
director passed this along and lost $877,000 on the program. 
That is what it cost in a poor county where I live. So they are 
having trouble financing this.
    I want to get something else. And what Mr. Curbelo said was 
correct. CDC just released a report that said 35 percent of the 
adults in the country over 20 are obese, 69 percent over 20 are 
overweight, and the average woman today weighs what the average 
male did in 1960. So we have gotten larger as a country, there 
is no question.
    And I wrote you a letter a year-and-a-half ago, a little 
over a year ago, about the USDA would release a comprehensive 
report based on how SNAP benefits are used. And to date, in 
spite of numerous follow ups, we haven't heard anything.
    And basically, what we heard was you wrote a letter in July 
and again in November and it was supposed to be out in March 
and it still isn't out. And the reason for that is because that 
is a huge program. And I think unless you affect that program 
about how foods are bought and prepared there in a more healthy 
way, you are never going to fix the school lunch because the 
kids are going home to their parents.
    And when is that report coming out? Can you tell me?
    Secretary Vilsack. I can check. I don't know the answer to 
that question, congressman.
    Mr. Roe. Well, I don't want to interrupt you, but I have a 
very little bit of time.
    I used the WIC program for years as an OB/GYN doctor. It 
worked. WIC works; and when you put healthy food out there for 
people to eat. And we spent between $2 and $4 billion estimated 
last year on soft drinks. And I know that isn't good news to 
the soft drink industry, but that isn't food. And we should be 
looking at this massive program if we could get the data, 
because I can tell you, when I go into Harris Teeter, which I 
have an apartment there, they know exactly what I am buying.
    So we should be able, the USDA should be able to tell us 
what those recipients are buying and we need to narrow those 
food choices so they are eating healthier. I want to help you 
work with that because the CDC data I just presented are real 
and it is a nationwide problem. And I am here to try to work 
with you.
    Secretary Vilsack. Well, I can tell you that what SNAP 
folks are buying is not much different than what the rest of 
the country is buying.
    Mr. Roe. But they are buying it with tax dollars--
    Chairman Kline. The gentleman's time has expired.
    Ms. Clark?
    Ms. Clark. Thank you, Mr. Chairman.
    And thank you for being here today, Mr. Secretary. And I, 
too, really appreciate your personal story and the empathy that 
you bring to these issues.
    And I also appreciate the concerns that some of my 
colleagues have raised with the difficulty that a small 
percentage of schools are having providing healthier school 
meals. And I am really grateful for your open-ended approach 
and flexibility, whether it is let's look at flavored milks, 
let's look at trucking and how we can do better by rural 
communities.
    But what really strikes me is that in the richest country 
in the world, nearly 16 million children struggle with food 
insecurity. That is one in five American children. And we know 
this brings lower academic success, increased health factors, 
obesity, cardiovascular disease, and increased health care 
costs.
    So in 3 minutes, I would like to know our best strategy for 
solving childhood hunger. And I really would like to have your 
opinion on where do we need to focus. Is it expanding 
eligibility for nutrition assistance programs like WIC? Is it 
expanding accessibility to proposals similar to adjunctive and 
community eligibility? Or is it simply time to increase SNAP 
benefits so these kids can also eat when they get home?
    Secretary Vilsack. Boy, I think it is an all-of-the-above, 
in a sense. I would say that this administration has started 
that process of improving and expanding and doing it in a way 
that is focused on integrity. We have reduced the integrity 
concerns on the SNAP program, we are addressing them in WIC, 
and now we have an aggressive effort that we are under way in 
terms of the school programs.
    So part of it is making sure that we spend the dollars that 
we have wisely. Part of it is creating ways in which access to 
programs is simpler. That is why we are looking at an online 
application for the school lunch program. That is why we are 
encouraging community eligibility. That is why we are 
encouraging direct certification.
    So continued looking at ways in which there are barriers 
and trying to figure them out. If Title I is a barrier for 
school districts to embrace community eligibility that would 
provide for greater access and fewer errors, then we ought to 
be working with the Department of Education to figure out a way 
to get through that barrier.
    So just knocking these barriers down.
    Ms. Clark. Great, thank you. We did it.
    And thank you, I really appreciate your testimony today and 
the work that you are doing. And we look forward to working 
with you.
    Secretary Vilsack. Thank you.
    Ms. Clark. I yield back.
    Chairman Kline. The gentlelady yields back.
    Mr. Grothman:
    Mr. Grothman. Thank you.
    I also have toured a lot in my local schools and get the 
same thing we have heard around here. The federal requirements 
are causing the costs to go up that they have to charge the 
kids who are not low-income. Kids are throwing away their food. 
If they have an open campus, the kids are fleeing the school 
lunchroom to go to the McDonald's or whatever across the street 
because they don't want the federally-mandated food.
    The question I have for you, you know, and I think it is 
just odd that here on a federal level we are telling people, 
school districts what they can serve for lunch, because I 
always thought most of us were taught what a nutritious lunch 
is when we were probably in elementary school.
    And therefore, I wonder about just giving them the money 
and not worrying about the paperwork.
    How many people do you have and how much cost goes into 
paying for these programs?
    Secretary Vilsack. Well, the school lunch program is 
roughly $12-1/2 billion.
    Mr. Grothman. I mean, the administration, not how much is 
the checks that we send out.
    Secretary Vilsack. I don't know that the administration 
is--I don't know specifically the answer to that, but I will 
tell you this. The chairman mentioned the number of employees 
working at USDA.
    And Mr. Chairman, it is no longer 100,000, it is now closer 
to 85,000 people work for USDA. So we have seen a significant 
reduction in administrative expense associated with all our 
programs. So we are operating on an operating budget that is 
less than it was when I became secretary.
    So I can assure you that we are looking for every 
administrative efficiency. We have addressed and identified 
over $1.4 billion of efficiencies as part of our blueprint for 
stronger service.
    So I don't think administration is the issue here. And 
frankly, it is not that we tell specifically what needs to be 
served, but we give people guidelines and standards and then 
they have freedom to figure out ways, creative ways to meet 
those standards.
    Mr. Grothman. It should not be that difficult to make a 
healthy lunch. Right now we couldn't be doing worse. People are 
throwing away the food. And if you have open campus, the kids 
are leaving the campus and looking for somewhere else to eat.
    Secretary Vilsack. Congressman, with due respect, studies 
show that there isn't more food waste than there was before the 
program. And in fact, food waste is an issue that transcends 
the school lunch program.
    Mr. Grothman. The question I would like to know when I talk 
to my local school districts who frequently always want more 
money, they wonder how much we are spending here to administer 
a program that is kind of based on the idea that the local 
people don't know how to make a decent lunch.
    How many employees do you have and how much does it cost to 
administer this program?
    Secretary Vilsack. I will be happy to provide you that 
answer. But I would also say that those very same people may be 
living in a state where they haven't spent all the money that 
we have provided to them.
    And my question to them would be, why aren't you spending 
those resources if you are strapped? There is $24 million on 
the table that hasn't been spent. Why is that the case?
    Chairman Kline. The gentleman's time has expired.
    Ms. Adams.
    Ms. Adams. Thank you, Mr. Chairman.
    And thank you also, Mr. Secretary.
    I have some serious issues with food insecurity in North 
Carolina. We have got a high rate, 26 percent. In the 12th 
District that I represent, food insecurity is over 30 percent.
    So I launched a hunger initiative last month in the 
district, and I heard some very disturbing things from some of 
the people who actually came and had a discussion with me.
    I heard a troubling story about a child who was 20 to 30 
feet from the approved site of the bus stop where the food was 
being served. And the mother mentioned that she was very 
concerned because the child couldn't actually take the food on 
the front porch which was right in front of the stop, because 
of the current regulations. And she felt that her child was 
being treated like an animal, forced to eat in the dirt.
    So I know that is not the intent of the law, but just 
wanted to ask you what changes you thought we needed to make to 
ensure that we aren't discouraging participation in the program 
and making children feel less than they ought to feel.
    Secretary Vilsack. Well, I would say two. One is that we 
discussed briefly the need to extend the EBT program that has 
been successful in embracing and encouraging access and 
flexibility.
    And then secondly, continue to work on ways in which we can 
provide greater flexibility in the site locations for where 
kids are as opposed to forcing kids to go to a site.
    You know, it is somewhat up to the local folks who 
basically are the sponsors of this program how strict they are 
about all of this. But I would say those would be two 
suggestions.
    Ms. Adams. Just one other thing. We have about 600,000 
children who qualify for free and reduced lunch and only 14 
percent are accessing. I think you have addressed some of those 
problems.
    But what type of discretion would the USDA have to do to 
waive some of the current regulations that will prevent 
students who are eligible for free lunch and not taking 
advantage of it?
    Secretary Vilsack. Well, I think that the first suggestion 
would be to make sure if a school district is taking full 
advantage of the programs that exist, the Community Eligibility 
Program, it may very well be that they qualify for that 
program, which would significantly reduce the administrative 
concerns. That will allow them basically to treat all the kids 
the same and still be reimbursed at a reasonable rate.
    So we would be happy to work with you to identify the 
school district that you are concerned about to see whether 
they might be able to take advantage of CEP.
    Ms. Adams. Thank you.
    I yield.
    Chairman Kline. The gentlelady yields back.
    Mr. Bishop?
    Mr. Bishop. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, for being here today. Appreciate 
your testimony.
    Mr. Secretary, the WIC program, we have had a little 
discussion about it today. There is a legislative mandate to 
rebate infant formula and for the allowance to do that for 
other foods.
    I have had discussions with folks in my district and there 
is concerns that have been raised that the rebates limit 
parental choice for both the WIC participants and the non-
participants. And I am wondering if you might be able to offer 
up some solutions to the committee today to promote what was 
intended by those rebates with cost containment as well as 
trying to find a way to do it without limiting parental choice.
    And also, I would like some input from you as to who you 
view should be able to choose the products they see as best for 
the kids.
    Secretary Vilsack. Well, we obviously are mindful of the 
need for the balance between a healthy package and a reasonable 
cost to taxpayers. Food inflation has, I think, increased by 12 
percent since the time I have been secretary. The WIC costs 
have increased by 1 percent. So the package concept, I think, 
is trying to maintain reasonable costs.
    The issue of flexibility, I know that we have provided some 
degree of flexibility on formula. Part of the challenge is that 
some of the folks and the choices that people want to make are 
much more expensive. That gets into a whole cost issue.
    You know, I thought you were going to be asking about the 
notion that some of the formula makers are concerned about too 
many people taking advantage of the WIC program because of the 
way in which states administer the Medicaid program.
    And I think the key there is to make sure that the data 
that they have, the industry has, and the data that we have 
match, because today that is not the case. There is significant 
delta between what they claim folks who are ineligible for WIC 
and we claim. So there is a set of issues there that I think we 
need to be addressing.
    Chairman Kline. The gentleman yields back.
    Mr. Jeffries?
    Mr. Jeffries. Thank you, Mr. Chair.
    And thank you, Secretary Vilsack, for your testimony here 
today as well as for your leadership on these very important 
issues.
    In the limited time that I have I was hoping that we could 
just drill down some on the childhood obesity problem that we 
have got in America.
    Now, more than one-third of children in the United States 
are considered overweight or obese. Is that correct?
    Secretary Vilsack. Yes.
    Mr. Jeffries. And is it fair to say that this level of 
obesity is a national epidemic?
    Secretary Vilsack. It is obviously a serious concern.
    Mr. Jeffries. And so obesity places children at greater 
risk of heart disease. Is that correct?
    Secretary Vilsack. That and other chronic diseases.
    Mr. Jeffries. A greater risk of respiratory illness, is 
that correct?
    Secretary Vilsack. I am not sure about that, but certainly 
diabetes, hypertension.
    Mr. Jeffries. Greater risk of liver disease?
    Secretary Vilsack. May very well be.
    Mr. Jeffries. Okay. Stroke?
    Secretary Vilsack. Greater risk of illness. I am not a 
doctor, so I don't want to go and I did raise my hand to tell 
the truth and nothing but the truth. So I want to make sure--
    Chairman Kline. In fairness, he did.
    Mr. Jeffries. Is it fair to say that childhood obesity 
increases the likelihood of bullying in school?
    Secretary Vilsack. In my personal experience, I would say 
that is probably true.
    Mr. Jeffries. Does it increase the likelihood of social 
isolation?
    Secretary Vilsack. Yes.
    Mr. Jeffries. Is it fair to say that childhood obesity 
increases the likelihood of severe emotional distress?
    Secretary Vilsack. I wouldn't be surprised if that weren't 
true.
    Mr. Jeffries. Okay. Now, the health care costs of obesity 
per year in the United States is as high as $147 billion, is 
that correct?
    Secretary Vilsack. I am not sure what the number is, but I 
know that there is a significantly high rate associated with 
obesity.
    Mr. Jeffries. Alright. So in your view, if you could just 
speak to some of the efforts that the Department of Agriculture 
has undertaken to address this epidemic of childhood obesity 
and the severe financial, health, emotional costs connected to 
it.
    Secretary Vilsack. Improving the WIC program to focus on 
fruits and vegetables that kids might not otherwise consume. 
Working with the SNAP families to allow them access to fruits 
and vegetables at farmers' markets and the EBT, 5,200 farmers' 
markets. Working on the expansion of the summer feeding 
program, 23 million more meals than when I became secretary.
    Focusing on improved school lunches and school breakfasts 
in terms of the standards and the calories to make sure the 
kids are getting nutrition, but not something that is unhealthy 
for them.
    Mr. Jeffries. And last question. In your view, has the 
implementation of the Healthy, Hunger-Free Kids Act of 2010 
effectively addressed the problem of childhood obesity?
    Secretary Vilsack. I think it is a component, Congressman. 
I think that the issue of exercise and physical activity is an 
equally important component to all of this. They are balanced. 
You have to have both of them. It isn't just calories in, it is 
also calories out.
    Mr. Jeffries. Thank you.
    Chairman Kline. Gentleman's time has expired.
    Mr. Messer?
    Mr. Messer. Mr. Secretary, appreciate you being here. 
Appreciate your stamina.
    I have had the opportunity to meet with your wife, 
Christie, in her role as the senior adviser for international 
education at USAID. And I can tell you that I know we share one 
thing in common in life, and that is that we both overachieved 
in marriage, because she is a dynamic professional and somebody 
that I very much appreciated her insights.
    Secretary Vilsack. Thank you.
    Mr. Messer. I represent a mostly rural area of Indiana, 19 
counties, ag- and manufacturing-based economy. A lot of folks, 
frankly, that when you go to their schools, visit the schools, 
they are on free and reduced lunch.
    And I wanted to ask you just a little bit to expand upon 
the challenges with the Summer Food Service Program. As you 
know, this program has existed for 40 years.
    This Monday, the Indiana Department of Education announced 
its 2015 summer food service sites. And unfortunately in 
Indiana, only about 14 percent of folks who are on free and 
reduced lunch are going to have access to those kinds of 
programs in the summer.
    And we have our disagreements on these programs. I think we 
all agree that no kid in America should go hungry.
    You know, I know, obviously, the first answer is always 
more money. But beyond that, what can we do to try to make sure 
that more kids in America won't be going hungry this summer?
    Secretary Vilsack. I think encouraging the seamless summer 
program, schools that our kids are comfortable going to and 
would be allowed to continue servicing food and better 
utilization of our school properties.
    I think working with mayors and governors to sort of put 
the spotlight on this and encourage greater community 
participation.
    And certainly at the local level, as a former mayor myself, 
I know that the park and recreation department could be a 
critically important component to expanding access.
    And then, frankly, more flexibility in our programs in 
terms of where kids have to go or how the meals can get to 
them.
    Mr. Messer. And that is the biggest challenge right? 
Transportation. I mean, the challenge that kids have to try to 
get to where these sites would be.
    Secretary Vilsack. It is a huge challenge in rural areas, 
which is why we ought to be focusing on more mobility in terms 
of how the meals can get to where the kids are as opposed to 
kids coming to where the meals are.
    Mr. Messer. Great. Thank you.
    No further questions.
    Chairman Kline. The gentleman yields back.
    We have had an opportunity for everybody to have a 
discussion with the secretary. We are pretty doggone close to 
12:00. We are going to wrap up here momentarily.
    I am going to yield to Mr. Scott for any closing remarks he 
has.
    Mr. Scott. Thank you, Mr. Chairman.
    I want to thank the secretary for your hard work and for 
visiting Virginia and working with our first lady, Dorothy 
McAuliffe, on child nutrition issues.
    Thank you for your testimony and reinforcing the importance 
of good nutrition from a national security point of view, 
readiness of our potential military personnel and budgetary 
concerns, the future health care costs that are associated with 
obesity.
    And then in response to the questions from the gentleman 
from New York, the behavior associated with obesity can have 
budgetary impacts.
    We have made progress over the last few years, particularly 
in terms of the standards with virtually all, 95 percent as I 
understand it, school systems reporting compliance with the 
upgraded standards, and the community eligibility which means 
more people can participate. So we need to continue making that 
progress.
    And I thank you, Mr. Secretary, for being with us today.
    Chairman Kline. I, too, want to thank you, Mr. Secretary. 
You have been a great witness. You have got a heck of a big 
job. And we are going to try to do the very best we can when we 
look at reauthorizing this to address concerns. You have heard 
a number of them here today.
    Sometimes we are listening perhaps or looking at some 
different statistics, but all of us, I believe it is fair to 
say, all of us up here want these kids to have a healthy lunch. 
I think that many of us have talked to, listened to, eaten with 
and all of those things, gone to schools and see that there 
still are some real concerns about cost and flexibility. So we 
will be looking at that.
    But I very much appreciate your testimony today. I want to 
thank you for being here.
    And there being no further business, we are adjourned.
    [Questions submitted for the record and their responses 
follow:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    [Secretary Vilsack's response to questions submitted for 
the record]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    [Whereupon, at 12:07 p.m., the committee was adjourned.]

                                 <all>
</pre></body></html>
